<html>
<title> - CLEAN ENERGY INFRASTRUCTURE AND THE WORKFORCE TO BUILD IT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


       CLEAN ENERGY INFRASTRUCTURE AND THE WORKFORCE TO BUILD IT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2019

                               __________

                           Serial No. 116-10
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-527 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                       
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
                         Subcommittee on Energy

                        BOBBY L. RUSH, Illinois
                                 Chairman
SCOTT H. PETERS, California          FRED UPTON, Michigan
MIKE DOYLE, Pennsylvania               Ranking Member
JOHN P. SARBANES, Maryland           ROBERT E. LATTA, Ohio
JERRY McNERNEY, California, Vice     CATHY McMORRIS RODGERS, Washington
    Chair                            PETE OLSON, Texas
PAUL TONKO, New York                 DAVID B. McKINLEY, West Virginia
DAVID LOEBSACK, Iowa                 ADAM KINZINGER, Illinois
G. K. BUTTERFIELD, North Carolina    H. MORGAN GRIFFITH, Virginia
PETER WELCH, Vermont                 BILL JOHNSON, Ohio
KURT SCHRADER, Oregon                LARRY BUCSHON, Indiana
JOSEPH P. KENNEDY III,               BILL FLORES, Texas
    Massachusetts                    RICHARD HUDSON, North Carolina
MARC A. VEASEY, Texas                TIM WALBERG, Michigan
ANN M. KUSTER, New Hampshire         GREG WALDEN, Oregon (ex officio)
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
TOM O'HALLERAN, Arizona
LISA BLUNT ROCHESTER, Delaware
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Richard Hudson, a Representative in Congress from the State 
  of North Carolina, opening statement...........................     8

                               Witnesses

Gilbert Campbell, Cofounder, Volt Energy.........................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................   141
Katie Walthall Mehnert, Founder and Chief Executive Officer, Pink 
  Petro and Experience Energy....................................    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................   142
Vien Truong, President, Dream Corps..............................    24
    Prepared statement...........................................    26
    Answers to submitted questions \1\...........................   146
James Simpson, Manager, Military Talent Acquisition, Pike 
  Enterprises, LLC...............................................    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................   149
Leticia Colon de Mejias, Chief Executive Officer, Energy 
  Efficiences Solutions, LLC, and Policy Co-Chair, Home 
  Performance Coalition..........................................    36
    Prepared statement...........................................    39
    Answers to submitted questions...............................   155
Anne R. Pramaggiore, Senior Executive Vice President, Exelon 
  Corporation, and Chief Executive Officer, Exelon Utilities.....    43
    Prepared statement...........................................    45
    Answers to submitted questions...............................   159

                           Submitted Material

H.R. 1315, the Blue Collar to Green Collar Jobs Development Act 
  of 2019........................................................    94
Letter of February 27, 2019, from Jason Hartke, President, 
  Alliance to Save Energy, to Mr. Rush, submitted by Mr. Rush....   113
Letter of February 26, 2019, from Joni Davis and Stan Sherrill, 
  Duke Energy, to Mr. Rush, submitted by Mr. Rush................   114
Letter of February 26, 2019, from Abigail Ross Hopper, President 
  and Chief Executive Officer, Solar Energy Industries 
  Association, to Mr. Pallone, et al., submitted by Mr. Rush.....   115

----------

\1\ Questions submitted to Ms. Truong were answered by Michelle Romero, 
National Director of Green For All, Dream Corps.
Letter of February 26, 2019, from Valerie Segovia, Director for 
  Outreach and Development, Nuclear Power Institute, Texas A&M 
  University System, to Mr. Rush and Mr. Upton, submitted by Mr. 
  Rush...........................................................   117
Letter of February 27, 2019, from Mary Miller, President, Center 
  for Energy Workforce Development, to Mr. Rush and Mr. Upton, 
  submitted by Mr. Rush..........................................   121
Report of the National Urban League, Washington Bureau, ``The 
  Digital Revolution: Electrification & Smart Communities, The 
  Benefits and the Barriers,'' by Donald Cravins, Jr., and Gavin 
  H. Logan, submitted by Mr. Rush................................   126
Article of January 18, 2019, ``In Minneapolis, low-income 
  neighborhoods see influx of clean energy investment,'' by Frank 
  Jossi, Energy News Network: Minnesota, submitted by Mr. 
  McEachin.......................................................   136

 
       CLEAN ENERGY INFRASTRUCTURE AND THE WORKFORCE TO BUILD IT

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2019

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2322, Rayburn House Office Building, Hon. Bobby L. Rush 
(chairman of the subcommittee) presiding.
    Members present: Representatives Rush, Peters, Doyle, 
McNerney, Tonko, Loebsack, Butterfield, Schrader, Kennedy, 
Veasey, Kuster, Barragan, McEachin, O'Halleran, Blunt 
Rochester, Pallone (ex officio), Upton (subcommittee ranking 
member), Latta, Rodgers, Olson, McKinley, Griffith, Johnson, 
Bucshon, Flores, Hudson, Walberg, and Duncan.
    Staff present: Jeffrey C. Carroll, Staff Director; Adam 
Fischer, Policy Analyst; Waverly Gordon, Deputy Chief Counsel; 
Rick Kessler, Senior Advisor and Staff Director, Energy and 
Environment; Brendan Larkin, Policy Coordinator; John Marshall, 
Policy Coordinator; Lisa Olson, FERC Detailee; Mel Peffers, 
Environment Fellow; Tim Robinson, Chief Counsel; Tuley Wright, 
Energy and Environment Policy Advisor; Bijan Koohmaraie, 
Minority Counsel, Consumer Protection and Commerce; Mary 
Martin, Minority Chief Counsel, Energy and Environment; Brandon 
Mooney, Minority Deputy Chief Counsel, Energy; and Brannon 
Rains, Minority Staff Assistant.
    Mr. Rush. The Subcommittee on Energy will now come to 
order, and the Chair recognizes--will the witnesses please take 
their seat at the table? Will the witnesses please take their 
seat at the table?
    We want to welcome all of our witnesses to this inaugural 
hearing of the 116th Congress, and we are delighted to see all 
of the witnesses here.
    The Chair now recognizes himself for 5 minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Once again, I would like to welcome everyone here 
today. I really want to, once again, welcome our witnesses. You 
brighten up the room here, and we certainly thank you for your 
attendance and your sacrificing your time.
    I am truly excited to hold this morning's hearing focused 
on H.R. 1315, the Blue Collar to Green Collar Jobs Development 
Act. We have an excellent panel of majority and minority 
witnesses, who represent me on the same diverse groups that 
this bill is designed to reach.
    While I am eager to hear from all of our guests, please 
allow me this great pleasure to acknowledge Ms. Anne 
Pramaggiore, who is here representing one of the most forward-
looking utilities in the Nation, Exelon, based out of one of 
the most forward-looking cities in the Nation, my great home 
city of Chicago, that only yesterday had an election, and for 
the first time in history nominated two African American women 
to be in the runoff for election as mayor of the city of 
Chicago.
    I must say that right from the outset, I want to make it 
clear that the bill that we have before us today should be 
viewed as a work in progress.
    I am pleased that so many stakeholders have reached out to 
my office, up to and including this very moment that this 
hearing is commencing. My objective is to continue to work with 
and incorporate constructive feedback from as many 
organizations that truly share my goal of putting Americans 
back to work.
    And let me be as frank as possible. My primary and sole 
objective is exactly that: putting as many American citizens to 
work in good-paying energy and manufacturing jobs as humanly 
and legislatively possible. The substance of this bill has not 
changed since the bill was passed through the full committee 
and through the House--under Republican control I might add--
with overwhelming bipartisan support over the last two 
Congresses.
    However, what we have heard time and time again throughout 
these last few years is that we were not always able to truly 
help the very same individuals that this bill was designed to 
reach. Many potential candidates from low-income homes and 
minority communities, women who serve as heads of household, 
returning veterans, out-of-work coal and other energy workers, 
were not always able to take advantage of training programs.
    These individuals have stressed to me that they needed 
assistance just to enroll in these facilities. Initially, many 
of these very same candidates were not able to leave one low-
paying job or even give up their job searches simply because 
they couldn't afford to go through the training if they were 
not getting paid as they worked to advance their careers.
    This is just the reality of many of the candidates that 
this bill is designed to reach, and this is also the reason why 
we needed to beef up this legislation with actual resources and 
assistances to help these American citizens. So I truly hope 
that moving forward we can, once again, for the third time, 
make this a bipartisan bill.
    My office is eager, willing, and anxious to work with any 
Member on this subcommittee or beyond to address any 
legislative concerns and put forward legislation that will 
not--that will hit the mark and help put hundreds or even 
thousands of hardworking Americans back to work in good-paying 
jobs and careers.
    But, once again, I want to thank all of our distinguished 
witnesses for being here today, and now I would like to call on 
my friend and colleague from my neighboring State, the great 
State of Michigan, Ranking Member Upton, for his opening 
statement.
    [The prepared statement of Mr. Rush follows:]

                Prepared statement of Hon. Bobby L. Rush

    I would like to welcome everyone here today. I am truly 
excited to hold this morning's hearing focusing on HR 1315, the 
Blue Collar to Green Collar Jobs Development Act.
    We have an excellent panel of majority and minority 
witnesses who represent many of the same diverse groups that 
this bill is designed to reach.
    While I am eager to hear from all of our guests, I must 
acknowledge Anne Pramaggiore, who is here representing one of 
the most forward-looking utilities in the Nation, Exelon, based 
out of one of the most forward-looking cities in the country, 
my great home city of Chicago.
    Right from the outset, I want to make it clear that the 
bill we have before us today should be viewed as a work in 
progress.
    I am pleased that so many stakeholders have reached out to 
my office, up to and including the moment that this hearing 
commenced.
    My objective is to continue to work with and incorporate 
constructive feedback from as many organizations that truly 
share my goal of putting people to work.
    And let me be as frank as possible, my primary and sole 
objective is exactly that, putting as many people to work in 
good-paying energy and manufacturing jobs as possible.
    The substance of this bill has not changed since the bill 
was passed through the full committee and through the House, 
under Republican control I might add, with overwhelming 
bipartisan support the last two Congresses.
    However, what we have heard time and time again throughout 
these last few years is that we were not always able to truly 
help the very same individuals that this bill was designed to 
reach.
    Many potential candidates from low income homes and 
minority communities, women who serve as heads of households, 
returning veterans, out-of-work coal and other energy workers 
were not always able to take advantage of training programs.
    These individuals have stressed to me that they needed 
assistance just to enroll in these facilities.
    Additionally, many of these very same candidates were not 
able to leave lower paying jobs or even give up their job 
searches simply because they couldn't afford to go through 
training if they were not getting paid as they worked to 
advance their careers.
    This is just the reality for many of the candidates that 
this bill is designed to help.
    And this is also the reason why we needed to beef up this 
legislation with actual resources and assistance to help reach 
these individuals.
    So, I truly hope that moving forward we can make this a 
bipartisan bill once again.
    My office is eager and willing to work with any Member, on 
this subcommittee and beyond, to address any legitimate 
concerns and put forward legislation that will hit the mark and 
help put hundreds or even thousands of hardworking Americans 
back to work in good-paying jobs and careers.
    Once again, I want to thank all of our distinguished 
witnesses for being here today.
    Now I would like to call on my friend and colleague from 
the great State of Michigan, Ranking Member Upton for his 
opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. I like that ``great State of Michigan,'' but 
even better I like being called your friend, because in fact we 
are. We have been very good friends for a long, long time and 
share many, many things together.
    Mr. Chairman, I do thank you for holding this hearing to 
continue our efforts on the workforce development. This hearing 
marks the first in the Energy Subcommittee under your 
chairmanship, and I look forward to working very closely with 
you, and your staff, and Members on both sides of the aisle.
    I want to welcome our newest Member on the Republican side, 
Cathy McMorris Rodgers, to our subcommittee.
    Mr. Chairman, I am confident that we can continue our long 
history of bipartisan cooperation and set aside some of our 
differences. Working together, we have delivered some very big 
wins--some would call them huge--for the American people over 
the years, and I remain hopeful that we will continue in that 
tradition.
    Since our first hearing is billed as a legislative hearing, 
I should note that under my chairmanship of the committee we 
strived for regular order. In fact, you will remember that we 
moved your workforce legislation in the 114th Congress to 
promote a 21st century energy and manufacturing workforce, with 
both background and legislative hearings and markups.
    We worked together again in the last Congress, the 115th, 
to pass a bill a second time, the same bill a second time, by 
unanimous consent in the committee, and also on the House 
floor. Sadly, the Senate didn't get it done, but that doesn't 
mean that we can't keep trying.
    I hope that I would take you at your word that this hearing 
doesn't start a precedent of rushing to move new legislation 
without thorough analysis and oversight. This new bill was just 
sprung on us last week, and we haven't had much of an 
opportunity to work with you. But I remain open-minded, and I 
have serious concerns that this legislation unfairly picks 
winners and losers and has the potential to waste valuable 
taxpayer dollars.
    My colleagues and I on this side of the aisle were pleased 
to support your bill last Congress because it did take an all-
of-the-above approach that recognized the benefits of reliable, 
affordable, and plentiful energy jobs in manufacturing 
competitiveness. We both made some compromise, and in fact we 
found a sweet spot.
    I am afraid that this bill strays from our bipartisan 
agreement from last Congress. It appears that it simply 
recycles the failed Obama administration Green Jobs agenda by 
promising nearly a billion dollars of new spending to retrain 
workers for the so-called Green Jobs.
    The record has shown that the Obama Green Jobs agenda did 
waste billions of dollars and failed to deliver on its 
promises. There were many lessons learned, and we should take 
our time to get this one right rather than repeat the mistakes 
of the past, and I look forward to working together on that.
    I especially look forward to hearing from our witnesses 
today, so that we can better understand the needs and 
opportunities for expanding private sector workforce 
development initiatives to improve diversity in the energy and 
manufacturing industries. I believe that we both share a desire 
to expand opportunities for minorities, for women, and 
certainly our veterans, in the energy industry, although that 
we may differ on the strategy to accomplish that goal.
    Today we are going to hear from witnesses representing 
veterans and women in the types of traditional energy jobs that 
would be unfairly excluded by the legislation before us. I 
would ask that you listen to the voices of those who work in 
nuclear, fossil, energy, and manufacturing industries and open 
this process up, so that in fact it is more transparent and 
inclusive.
    We should also receive testimony from the Department of 
Energy and incorporate the lessons learned from the Green Jobs 
Program before rushing to move this bill. I remain hopeful that 
these important workforce development issues don't get bogged 
down in partisan politics. As we have done in the past, when we 
give all sides an opportunity to participate and adhere to 
regular order, there is no limit in terms of what we can 
achieve.
    The bipartisan bills we passed into law last Congress are 
prime examples. We streamlined the licensing process for 
renewable hydro power projects. We promoted zero emissions 
nuclear energy. We amended the Federal Power Act to provide 
more transparency on electric rates for consumers, and we 
advanced solutions to modernize our infrastructure and harden 
our grid.
    There is a lot that needs to be done this Congress, and 
Republicans are certainly eager to go to work. We are going to 
continue to put consumers first in everything that we do as we 
propose solutions to encourage technological innovation and 
energy, ensure a sound regulatory environment, promote American 
workforce development, and foster free markets and competition.
    With that, I look forward to working with you in this 
Congress, and I yield back the balance of my time. Thank you, 
my friend.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Thank you, Mr. Chairman for holding this hearing to 
continue our efforts on workforce development.
    This hearing marks the first in the Energy Subcommittee 
under your chairmanship. I look forward to working closely with 
you and the new Members who have joined the subcommittee.
    I would like to welcome our newest Member on the Republican 
side, Mrs. Cathy McMorris Rodgers of Washington.
    Mr. Chairman, I am confident that we can continue our long 
history of bipartisan cooperation and set aside some of our 
differences. Working together, we've delivered some big wins 
for the American people over the years, and I remain hopeful 
that we'll continue in that tradition.
    Since our first hearing is billed as a legislative hearing, 
I should note that under my chairmanship of the committee, we 
strived for regular order. In fact, you'll remember that we 
moved your workforce legislation in the 114th Congress, to 
promote a ``21st Century Energy and Manufacturing Workforce'' 
with both background and legislative hearings and markups. We 
worked together again in the 115th Congress to pass the bill a 
second time by unanimous consent in the committee and on the 
House Floor. Unfortunately, the Senate didn't get it done, but 
that doesn't mean we can't keep trying together.
    I hope, and I would take you at your word, that this 
hearing doesn't start a precedent of rushing to move new 
legislation without thorough analysis and oversight. This new 
bill was just sprung on us last week, and we haven't had the 
opportunity to work with you.
    I remain open-minded, but I have serious concerns that this 
legislation unfairly picks winners and losers, and has the 
potential to waste valuable taxpayer dollars.
    My colleagues and I on this side of the aisle were pleased 
to support your bill last Congress, because it took a balanced, 
``all-of-the-above'' approach that recognized the benefits of 
reliable, affordable, and plentiful energy jobs and 
manufacturing competitiveness. We both made some compromises, 
and we found the sweet spot.
    I am afraid this bill abandons our bipartisan agreement 
from last Congress. Worse yet, it appears this bill simply 
recycles the failed Obama administration's Green Jobs Agenda by 
promising nearly a billion dollars of new spending to retrain 
workers for so-called ``green collar'' jobs.
    The record has shown that the Obama Green Jobs Agenda 
wasted billions of dollars and failed to deliver on its 
promises. There were many lessons learned, and we should take 
our time to get this one right, rather than repeat the mistakes 
of the past.
    As you may remember, President Obama's stimulus package 
included a program that sounds very similar to legislation 
before us today. The stimulus included a $500 million 
Department of Labor-run program to train workers for green 
jobs, such as installing solar panels or insulation in homes 
and buildings. As we found through committee oversight, the 
green jobs did not materialize and job placement had been much 
less than expected. Let's take our time to avoid the same 
mistakes.
    I especially look forward to hearing from our witnesses 
today, so we can better understand the needs and opportunities 
for expanding private-sector workforce development initiatives 
to improve diversity in the energy and manufacturing 
industries. I believe we both share a desire to expand 
opportunities for minorities, women, and veterans in the energy 
industry, although we may differ on the strategy to accomplish 
that goal.
    Today, we'll hear from witnesses representing veterans and 
women in the types of traditional energy jobs that would be 
unfairly excluded by the legislation before us.
    I would ask that you listen to the voices of those who work 
in nuclear, fossil energy, and manufacturing industries and 
open this process up so that it's more transparent and 
inclusive.
    We should also receive testimony from the Department of 
Energy and incorporate the lessons learned from the Obama Green 
Jobs program before rushing to move this bill.
    I remain hopeful that these important workforce development 
issues don't get bogged down in partisan politics. As we've 
done in the past, when we give all sides an opportunity to 
participate and adhere to regular order, there is no limit to 
what we can achieve.
    The bipartisan bills we passed into law last Congress are 
prime examples. We streamlined the licensing process for 
renewable hydropower projects, promoted zero-emissions nuclear 
energy, amended the Federal Power Act to provide more 
transparency on electric rates for consumers, and advanced 
solutions to modernize our infrastructure and harden our grid.
    There's a lot that needs to be done this Congress, and 
Republicans are eager to get to work. We're going to continue 
to put consumers first in everything we do, as we propose 
solutions to encourage technological innovation in energy, 
ensure a sound regulatory environment, promote American 
workforce development, and foster free markets and competition.
    With that, I look forward to working alongside you this 
Congress, and I yield back the balance of my time.

    Mr. Rush. Thank you, and your comments will be considered.
    The Chair now recognizes Mr. Pallone, chairman of the full 
committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Rush. Today we are 
discussing Chairman Rush's Blue Collar to Green Collar Jobs 
Development Act of 2019. For many years, Chairman Rush has been 
Congress' champion for developing a more diverse and robust 
energy workforce, and I commend him for his longtime commitment 
to this important effort.
    As we approach the end of Black History Month, this hearing 
is an important opportunity to look at the diversity gaps in 
the energy industry, why they are occurring, and what we can do 
to make the industry more inclusive. Minorities are 
significantly underrepresented in the science, technology, 
engineering, and math, or STEM, fields. African Americans and 
Hispanics represent 27 percent of the overall nationwide 
workforce, but only make up 16 percent of the STEM workforce.
    And it is not just a question of minorities being 
underrepresented in STEM fields, there is also an earnings gap 
for minority workers who hold these jobs. The average African 
American STEM worker earns 81 percent of the salary of a white 
STEM worker, while a woman holding a STEM job makes just 72 
percent of the salary of the average man. So preparing workers 
for the energy jobs of the future through training and 
educational opportunities can help narrow this unacceptable 
gap.
    Chairman Rush's legislation takes important steps to bridge 
the diversity gaps that currently exist in the energy sector. 
The bill establishes a comprehensive nationwide program at the 
Department of Energy to improve education and training for jobs 
in energy-related industries.
    The legislation provides DOE new authority to offer direct 
assistance to schools, workforce development boards, and labor 
organizations, and the bill also establishes a grant program to 
provide funds to businesses to pay employees who are receiving 
training to work in the renewable energy, energy efficiency, or 
grid modernization sectors. And these are areas critically 
important in our efforts to combat climate change.
    Chairman Rush has been working on this bill since the 113th 
Congress. Previous versions have enjoyed strong bipartisan 
support, including last Congress when a version of the bill 
passed the House on a voice vote. In the 114th Congress, 
Republicans included his bill in the base text of the North 
American Energy Security and Infrastructure Act, a broad energy 
bill introduced by then-full committee Chairman Fred Upton.
    So I commend my colleagues on both sides of the aisle for 
recognizing the importance of this legislation and the issues 
it addresses. The energy workforce in our country is growing, 
particularly in the area of wind energy, energy efficiency, and 
grid modernization.
    Our challenge is to ensure the appropriate training and 
educational opportunities are available to workers who can fill 
these jobs. And at the same time, we must develop policies to 
provide opportunities for minorities and unrepresented groups 
to expand their participation in the energy workforce.
    It is also important that we ensure participation both to 
the traditional energy sector and the rapidly growing clean 
energy and efficiency sectors, and the goal is to have an 
energy workforce that reflects the demographics of the country 
as a whole, and this bill puts us on the pathway to achieving 
that objective.
    So, again, I thank the chairman, and I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today, we're discussing Chairman Rush's ``Blue Collar to 
Green Collar Jobs Development Act of 2019.'' For many years, 
Chairman Rush has been Congress' champion for developing a more 
diverse and robust energy workforce, and I commend him for his 
longtime commitment to this important effort.
    As we approach the end of Black History Month, this hearing 
is an important opportunity to look at the diversity gaps in 
the energy industry, why they are occurring and what we can do 
to make the industry more inclusive. Minorities are 
significantly underrepresented in the science, technology, 
engineering and math--or STEM--fields. African Americans and 
Hispanics represent 27 percent of the overall nationwide 
workforce, but only make up 16 percent of the STEM workforce. 
And it is not just a question of minorities being 
underrepresented in STEM fields--there is also an earnings gap 
for minority workers who hold these jobs. The average African 
American STEM worker earns 81 percent of the salary of a white 
STEM worker, while a woman holding a STEM job makes just 72 
percent of the salary of the average man. Preparing workers for 
the energy jobs of the future through training and educational 
opportunities can help narrow this unacceptable gap.
    Chairman Rush's legislation takes important steps to bridge 
the diversity gaps that currently exist in the energy sector. 
The bill establishes a comprehensive, nationwide program at the 
Department of Energy (DOE) to improve education and training 
for jobs in energy-related industries. The legislation provides 
DOE new authority to offer direct assistance to schools, 
workforce development boards and labor organizations. The bill 
also establishes a grant program to provide funds to businesses 
to pay employees who are receiving training to work in the 
renewable energy, energy efficiency or grid modernization 
sectors. These are areas critically important in our efforts to 
combat climate change.
    Chairman Rush has been working on this legislation since 
the 113th Congress. Previous versions of this bill have enjoyed 
strong bipartisan support, including last Congress when a 
version of the bill passed the House on a voice vote. In the 
114th Congress, Republicans included his bill in the base text 
of the North American Energy Security and Infrastructure Act, a 
broad energy bill introduced by then-full-committee Chairman 
Upton. I commend my colleagues on both sides of the aisle for 
recognizing the importance of this legislation and the issues 
it addresses.
    The energy workforce in our country is growing, 
particularly in the areas of wind energy, energy efficiency and 
grid modernization. Our challenge is to ensure the appropriate 
training and educational opportunities are available to workers 
who can fill these jobs. At the same time, we must develop 
policies to provide opportunities for minorities and other 
underrepresented groups to expand their participation in the 
energy workforce. It's also important that we ensure 
participation in both the traditional energy sector and the 
rapidly growing clean energy and energy efficiency sectors. The 
goal is to have an energy workforce that reflects the 
demographics of our country as a whole, and this bill puts us 
on a pathway to achieving that objective.
    Thank you. I yield back.

    Mr. Rush. I want to thank the chairman of the full 
committee. And the Chair now recognizes Mr. Hudson, who has 
been given Mr. Walden, the ranking member on the full 
committee's time. So the Chair now recognizes Mr. Hudson of 
North Carolina for 5 minutes for his opening statement.

 OPENING STATEMENT OF HON. RICHARD HUDSON, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Hudson. Thank you, Mr. Chairman. And, first, let me say 
congratulations to you on your chairmanship of this 
subcommittee. I am optimistic that together we can do big 
things.
    And thank you, Mr. Chairman, for holding this hearing on 
energy workforce development, an important issue for me and the 
constituents I represent back home in North Carolina.
    I would also like to thank Mr. James Simpson, a 25-year 
Marine Corps veteran and North Carolinian, for appearing before 
us today on behalf of Pike Enterprises, who is headquartered in 
Mount Airy, North Carolina, and has operations all across the 
country.
    Mr. Chairman, as has already been mentioned, this is the 
first Energy Subcommittee hearing of this Congress, and we are 
starting with a legislative hearing on a bill that you and I 
have worked together on over the past two Congresses. I was 
disappointed to learn that Republicans were cut out of the 
process this time around, and the bill was reintroduced with 
some major changes, including a new title and hundreds of 
millions of dollars in new spending.
    Mr. Chairman, the bill text was released last Friday and 
has not been made widely available. This is not regular order, 
and it is not the way I would have hoped to handle this bill, 
given our history of working together. I was also surprised to 
learn that the new language is not all of the above. In fact, 
it excludes fossil, nuclear, and manufacturing altogether.
    We have worked hard to make sure the bills the last two 
Congresses were bipartisan, all of the above, and inclusive of 
all underrepresented groups in the energy industry, including 
minorities, women, and veterans. This new version falls well 
short of the agreement we have had in the last two Congresses.
    I look forward to working closely with you. I respect you, 
Mr. Chairman, and I trust you. But because Republicans were not 
included on this new draft, I am afraid we are not putting our 
best foot forward. This is a legislative hearing, so we should 
also have an opportunity to hear from the appropriate 
Department of Energy representatives on their workforce 
development initiatives to ensure that this legislation doesn't 
unfairly pick winners or losers or add new layers of 
duplicative programs.
    In addition, this legislation would amend the DOE 
Organization Act and establish a new office within the DOE. 
These are significant actions that warrant examination through 
a full and complete legislative process. Even if the way we got 
here today is disappointing, I will try to keep an open mind 
because we owe it to our constituents to put aside our 
differences and work together.
    With that said, I look forward to receiving testimony from 
our witnesses today and gathering feedback from the Department 
of Energy in additional legislative hearings. If you are 
willing, as you said in your opening statement, Mr. Chairman, 
to make this a bipartisan effort, I would also look forward to 
offering constructive solutions to get this bill back on track.
    I thank you, Mr. Chairman, and I yield back the balance of 
my time.
    Mr. Rush. I want to say to Mr. Hudson, I look forward to 
working with you. And I want to, just for the record to be 
clear, the staffs on the Republican side received this copy of 
the bill last Wednesday, not Friday. So we wanted to give you 
ample time to prepare for this hearing, and so it was last 
Wednesday.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' opening statements shall be made 
part of the record.
    And now, once again, it is my great pleasure and distinct 
honor to introduce our diverse panel of witnesses for today's 
hearing. And they are not in--well, I am going to start with 
our--from my left and your right, Mr. Gilbert G. Campbell, III, 
who is the cofounder of Volt Energy. And seated next to Mr. 
Gilbert is Ms. Katie Walthall Mehnert, the founder and chief 
executive officer of Pink Petro and Experience Energy. I think 
I got that right.
    And then next to Ms. Mehnert is Ms. Vien Truong, who is the 
president of Dream Corps, all right? And next to Ms. Truong is 
Mr. James Simpson, who is the manager of Military Talent 
Acquisition at Pike Enterprises, LLC.
    And then next is Ms. Leticia Colon de Mejias, who is the 
chief executive officer of the Energy Efficiencies Solutions, 
LLC. And, finally, once again, Ms. Anne Pramaggiore, the senior 
executive vice president and CEO of Exelon Utilities, which is 
headquartered in my home State of Illinois.
    And now we will have--first, I want to thank all of our 
witnesses for joining us today, and we look forward to your 
testimony. At this time we will now recognize each witness for 
5 minutes to provide an opening statement.
    Before we begin, I would like to explain the lighting 
system. In front of you is a series of lights. The lights will 
initially be green at the start of your opening statement. The 
light will turn yellow when you have 1 minute remaining. Please 
begin to wrap up your testimony at the point of the yellow 
light. The light will turn red when your time expires.
    Our first witness today is Mr. Gilbert G. Campbell, III, 
the cofounder of Volt Energy. Mr. Campbell, you have 5 minutes 
for your opening statement.

 STATEMENTS OF GILBERT CAMPBELL, COFOUNDER, VOLT ENERGY; KATIE 
  WALTHALL MEHNERT, FOUNDER AND CHIEF EXECUTIVE OFFICER, PINK 
  PETRO AND EXPERIENCE ENERGY; VIEN TRUONG, PRESIDENT, DREAM 
  CORPS; JAMES SIMPSON, MANAGER, MILITARY TALENT ACQUISITION, 
PIKE ENTERPRISES, LLC; LETICIA COLON de MEJIAS, CHIEF EXECUTIVE 
    OFFICER, ENERGY EFFICIENCIES SOLUTIONS, LLC, AND POLICY 
 COCHAIR, HOME PERFORMANCE COALITION; AND ANNE R. PRAMAGGIORE, 
SENIOR EXECUTIVE VICE PRESIDENT, EXELON CORPORATION, AND CHIEF 
              EXECUTIVE OFFICER, EXELON UTILITIES

                 STATEMENT OF GILBERT CAMPBELL

    Mr. Campbell. Chairman Rush, Ranking Member Upton, and 
members of the committee, I am truly honored to be here today 
to testify on the Blue Collar to Green Collar Jobs Development 
Act of 2019.
    My name is Gilbert Campbell. I am the cofounder of Volt 
Energy, a national renewable energy development firm that 
finances, develops, and builds solar energy, micro grid, 
electric vehicle charging station projects for governmental, 
educational, commercial, and nonprofit institutions.
    Our mission as a company is to uplift communities through 
the opportunities and benefits that are provided by clean 
technology. Some of our notable clients include The Cheesecake 
Factory, Subaru, Pepco, Howard University, Wake Forest 
University, KIPP Charter Schools, and the District of Columbia 
Government.
    We are at an exciting time in American history where our 
energy infrastructure is being modernized real time by clean 
technology. America's transition to a cleaner, advanced, and 
more resilient energy infrastructure is a key driver of job 
growth that will forever change the fabric of this wonderful 
nation.
    The renewable energy sector currently employs 770,000 
people, roughly the same as the U.S. telecommunications 
industry. Solar and wind jobs outnumber coal and gas jobs in 30 
States, including the District of Columbia. Last year, energy 
storage jobs surged to over 90,000. Grid modernization efforts 
have created more than 55,000 jobs, and there are 174,000 
Americans who develop and manufacture electric vehicles 
currently.
    As you can see, clean energy is one of our Nation's fastest 
growing sectors, and the transition from blue collar jobs to 
green collar jobs should not be viewed as a blue issue or 
Democratic issue, or a red or Republican issue. Rather, it 
should be viewed as a red, white, and blue opportunity for our 
Nation to modernize our energy infrastructure while providing 
good-paying jobs and wealth creation opportunities for all 
Americans.
    I am a strong supporter of this bill for the following 
reasons. Number 1, in order to achieve our clean energy goals, 
we need a talented, trained, and diverse workforce. Number 2, 
given our Nation's history, we need to remedy the 
disproportionate negative impact of energy policies on diverse 
communities and double down our investments in those 
communities.
    We have already seen the impact of these policies 
nationally, and this bill will enhance and scale the impactful 
efforts to ensure that all Americans benefit from the growth of 
clean energy.
    In order for us to accomplish the goals set forth in this 
bill, it is critical that we make investments in workforce 
development training through STEM programs that cultivate the 
untapped but abundant talent that resides in our 
underrepresented communities and our rural communities.
     As I mentioned before, we also must be honest that our 
country's aging energy infrastructure was built at the expense 
of minority and rural communities. Our country has picked 
losers. For example, studies show that 71 percent of African 
Americans live in counties that violate Federal air pollution 
standards, and nearly 70 percent of African Americans live 
within 30 miles of a coal power plant.
    African American children are 4 times more likely to be 
hospitalized for asthma, and 7.1 times more likely to die from 
asthma than white children.
    While the coal industry is rapidly declining, the 
incidences of premature deaths continue to rise, amounting to 
over 50,000 deaths per year. As we transition to a cleaner 
infrastructure, it is only equitable that minorities, women, 
veterans, the disabled, returning citizens, and other 
marginalized Americans must be given the opportunity to thrive 
in a clean energy economy that received $333.5 billion in 
global investments in 2017.
    Here in the District of Columbia, Mayor Bowser and regional 
utilities Pepco, WGL Energy, and others, have supporting things 
like the DC Infrastructure Academy, where the mission is to 
train a diverse and underrepresented workforce.
    Additionally, I serve on the board of the Energy Advisory 
Board of the Faunteroy Community Enrichment Center that serves 
low-income residents in DC. In a community stricken by extreme 
poverty, high unemployment, and high incarceration rates, we 
were able to launch a solar training program, enrolled 71 
students, but more importantly, employed 48 of those students 
into full-time jobs.
    My company is also developing numerous solar installations 
at Howard University, one of our Nation's most prominent 
historically black colleges and universities. But we are also 
working with each school and university to make sure our future 
leaders and students are learning the career paths in 
alternative energy.
    In closing, I support this bill because it would help us to 
achieve our clean energy goals and restore our standing as a 
global leader in energy, remedy the wrongs of our past, and 
continue to enhance the lives of all Americans around the 
country.
    Thank you for my time.
    [The prepared statement of Mr. Campbell follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I now recognize Ms. Mehnert for 5 minutes.

              STATEMENT OF KATIE WALTHALL MEHNERT

    Ms. Mehnert. Mr. Chairman, Ranking Member Upton, committee 
members, and fellow witnesses, my name is Katie Mehnert, and I 
am the founder and CEO of Pink Petro and Experience Energy. It 
is an honor here today to be with you to have my 8-year-old 
daughter, Ally Rees Mehnert, present to see what is possible 
for women in American.
    After two decades of working for global oil and gas 
companies, notably Shell and BP, in safety, environment, and 
culture change, I left the corporate path to become an 
entrepreneur to fill unmet needs I saw in our workforce.
    Pink Petro is working on four fronts to address the gap. We 
help women inside the sector network to understand career paths 
and connect to role models. We funded the nonprofit mentoring 
program, Lean In Energy, to provide mentors for women across 
the energy value chain. We are marketing the energy industry 
through personal storytelling, career opportunities on our 
Experience Energy careers site, with the aim to attract new 
recruits, women, minorities, and millennials for all forms.
    We help companies to shape culture by bringing peers 
together to learn from each other. My company and our community 
of members believe that it is critical we bring all forms of 
energy and talent together to look at the workforce of the 
future to make necessary investments to position America to 
take a leading role in the global energy transition.
    I launched Pink Petro in 2015 amidst a sharp drop in crude 
prices. Our community connects oil and gas members to share 
around best practices and storytelling. We have a Web site, we 
have an app, and we also have a global corporate Community 
Council which provides a neutral platform for dialogue and 
actions to address gender equality and inclusive culture.
    In January of 2016 when oil plummeted to $29, the World 
Economic Forum and 22 oil and gas and energy CEOs publicly 
published a call to action to end the gender gap. Pink Petro 
gathered stakeholders and prepared a response and action plan 
for consideration that you can look at on our Web site.
    After extensive research, we determined that oil and gas is 
not the only part of the sector with projected job growth, as 
well as gender and minority gaps. We are extending our 
Community Council presently to connect with other energy firms 
in utilities, renewables, and diversity organizations to 
develop a wider network of resources to address these gaps 
together.
    In 2017, when we launched Experience Energy, a careers site 
geared at helping energy companies to connect to diverse 
candidates, my thought and vision is we need to educate new 
recruits on the exciting benefits and social impact one can 
achieve in a career in energy.
    In 2018, in an effort to address those mentoring needs at 
scale, Pink Petro, Hess Corporation, Emerson, FedEx 
Corporation, Worley Parsons, and Vantage Energy supported the 
formation of a nonprofit, Lean In Energy, which uses technology 
to match mentors across the world and across all forms of 
energy.
    This work is all addressing opportunities the industry 
faces in creating a diverse workforce. First, we need to make 
the industry a more highly sought-after career choice. Billions 
of people are being lifted out of low incomes and helping to 
drive economic growth and the demand for energy. And the 
transition to a lower carbon energy system is opening up a wide 
range of economic possibilities. These are all reasons to 
involve women and underrepresented populations.
    Second, we need to increase understanding around the 
diversity of jobs and skill-sets. There is a mind-set in 
America that everyone needs a 4-year college degree. While that 
is desirable, it is not necessary. Workforce development 
programs in welding, electronics, technical operations, safety, 
go unfilled because of the perception of these roles.
    The Blue Collar to Green Collar Jobs Development Act of 
2019 recognizes these needs and the government role. I agree 
with the recommendation to language develop a comprehensive and 
detailed understanding of the workforce skills needed in the 
energy-related industries.
    Finally, diversity is critical to energy, but we need to be 
inclusive and work across all forms and all people. It truly is 
the use case for diversity and inclusion--the energy sector.
    I am very happy that you, as leaders in Congress, are 
looking to take action and welcome any questions you have. 
However, for us to accelerate this work, we must work together, 
join forces, all aspects of energy and all people to progress.
    Thank you for having me a part of this discussion.
    [The prepared statement of Ms. Mehnert follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I want to thank you, Ms. Mehnert. And is Alice in 
the room? Is Alice----
    Ms. Mehnert. Ally.
    Mr. Rush. Ally. Is she in the room? I want to recognize 
her.
    Ms. Mehnert. She is sleeping.
    [Laughter]
    Mr. Rush. She is sleeping. OK.
    Ms. Mehnert. She actually was having a meltdown right as we 
were starting, so I was----
    Mr. Upton. Maybe we should have a few more opening 
statements over there.
    [Laughter]
    Mr. Rush. Absolutely. All right.
    Now we will recognize Ms. Truong.

                    STATEMENT OF VIEN TRUONG

    Ms. Truong. Good morning, everyone. Thank you for having 
me. Thank you, Mr. Chairman, and members of the subcommittee, 
for this hearing.
    My name is Vien Truong. I am the president of the Dream 
Corps and here on behalf of Green For All, our national 
initiative. We are working to build an inclusive green economy 
strong enough to lift people out of poverty. We are facing two 
major crises in this country: poverty and pollution.
    And for too long we thought about and addressed these 
issues separately, developing programs and tackling our 
economic and environmental issues in separate silos, even 
though they have been deeply connected, and that has been a 
problem because low-income communities are hit first and worst 
by pollution. It is for many reasons: our proximity to 
pollution, our increased vulnerability to climate disasters, 
our increased cost because of increased living resulting from 
scarce resources.
    It is for this reason that working families stand to gain 
the most from moving towards a cleaner and more sustainable 
economy. As a mom of 6-year-old twins, I have fought for 
policies and programs that have prioritized families, the 
economy, and the environment for over a decade.
    Our team at Green For All have launched a Moms Mobilize 
campaign, where we mobilize hundreds of thousands of moms to 
lobby to protect the Environmental Protection Agency, to unify 
the country around the health, safety, and security of our kids 
and our families and our communities.
    Thankfully, the EPA's budget was secured because people 
across this country stood up, and we did so because we 
understood the EPA's main reasons to protect to health and 
children, our topic priority, but also that protecting the 
environment and supporting our economy are not contradictory.
    The clean energy sector is a pool for potential job growth, 
larger than any other in the United States. As we heard earlier 
from Mr. Campbell, we can already see this growth in both the 
solar and the wind power industries. Solar panel installations 
and wind turbine technician jobs are increasing at a faster 
rate in this country than most others.
    According to the International Renewable Energy Agency, 
jobs in the solar industry increased by 24 percent between 2015 
and 2017 alone, while the rest of the economy experienced only 
a 2 percent job growth rate. In 2017, the solar employment 
expanded 17 times faster than any other industry.
    If we invest in clean and renewable energy, we can and will 
protect this planet, our families, our future, and we can 
revamp our economy at the same time, creating millions of jobs. 
Investing in clean and renewable energy means investing in a 
new job market, including jobs to retrofit existing buildings, 
meet increased energy efficiency standards of new buildings, 
and install and manufacture solar panels, wind turbines, and 
other needed materials.
    These jobs have the potential to pay good wages, provide 
benefits, that helps working families meet ends, and to help 
improve health outcomes by advancing renewable and energy 
efficiency sectors.
    These new jobs have the potential to employ workers in 
places where bias has been prevalent, where we see exclusion 
and sustained disinvestment has been producing communities with 
concentrated poverty.
    To reach our goals of a clean energy economy, we have to 
challenge the two problems of job access and job quality. We 
must ensure that our investments result in robust, fulfilling, 
and career-oriented job pathways. We must take proper measures 
to prevent low quality, seasonal, or temporary jobs that fail 
front-line communities and fossil fuel workers, too.
    A transition to a clean energy economy has to mean a just 
transition, including uplifting those most impacted by fossil 
fuels and most in need of well-paying, secure jobs.
    Finding and training the workers are going to have to begin 
long before the jobs are filled. That process must begin with 
our young people, our students. We must begin developing the 
job skills and a career pathway now, and that is what this bill 
will help to do. Helping to make sure that traditional and 
nontraditional educational platforms, ensuring that energy-
oriented skill sets become fiscally, educationally, and 
culturally accessible.
    Apprenticeship and internship programs have to provide 
opportunities for young people to begin these job skills 
processes early and to gain mentors, compensation, and career 
visioning in the process.
    This bill is going to help us do that by outreaching to 
minority-serving institutions, nonprofit organizations, and 
State and local organizations at the same time.
    I am here because we have to begin transitioning to a new 
energy economy. And as we do so, we must develop and bring on 
new communities at the same time. Our communities depend on 
across the country.
    We are facing economic and environmental peril, and this is 
the time for bold leadership, for us to take America forward to 
a more cleaner and sustainable future, and supporting this Act 
will help to do so.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Truong follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Mr. Simpson, you are recognized for 5 minutes.

                   STATEMENT OF JAMES SIMPSON

    Mr. Simpson. Chairman Rush, Ranking Member Upton, members 
of the committee, thank you for the invitation to participate 
in today's hearing and allowing me the opportunity to discuss 
Pike's initiatives in hiring underrepresented populations into 
the energy sector, and in particular our commitment to hiring 
and training veterans to join the energy field.
    My name is James Simpson. I am manager of Military Talent 
Acquisition at Pike Corporation. Pike Corporation is a 
privately owned and operated business founded in 1945. The 
principal business of the company is power line construction, 
both overhead and underground, and maintenance, gas line 
construction, and also engineering.
    Pike offers turn-key solutions for customers, and our 
customers range from the largest energy producers in the 
country to the smaller local cooperative utilities. In my 
opinion, this hearing is perfectly timed. In today's market, we 
are seeing about a 14 percent growth in the industry, resulting 
in a need of several thousand new employees annually for the 
foreseeable future to keep up with demand.
    As a lot of other industries today, the energy sector has 
struggled to find willing and able employees to fill the 
thousands of current openings throughout the country, let alone 
the thousands of new jobs I just referenced that will be needed 
on an annual basis.
    The jobs at Pike are hard work. There can be long days and 
most work is done outside. One of the biggest things we are 
known for, you all here in Northern Virginia are probably 
familiar with seeing our blue and white trucks out in the 
community after storms. We do storm restoration work. When 
citizens are speeding out of the path of a hurricane or an 
incoming storm, our crews are rushing in to face that crisis 
and battle the storm and restore your power as quickly as 
possible.
    Pike realized not long ago that our retention rate for 
veteran employees was higher than our nonveteran retention 
rates. We studied deeper. We realized that our veteran 
population was an untapped pool of diverse talent, carrying the 
same vision and work ethic as our primary workforce today.
    They desire to serve others. They desire to run headlong 
into the face of adversity, and the ability, the desire to work 
in teams, are all fundamental tenets of our workforce. Many 
veterans bring out of the military with them that desire, that 
need to serve others.
    I was honored with the opportunity to spend 25 years as a 
Marine, and recently retired from the military service. I was 
approached by Pike and hired in July of 2018 with the sole 
purpose of expanding our outreach, training, and ultimate 
hiring of our Nation's veterans.
    While there is a lot of confusion and naivete about what 
exactly alignment is or what the skills are that are required, 
linemen are very intelligent people. They have to have math 
skills, the STEM skills that we have talked about today, in 
order to perform the jobs, identifying the type of transformers 
and fuses that are required, the type of wire.
    The gauge of wire used to deliver the electricity from 
production to your home or business is critical, and they have 
to have the knowledge to know how to work with those things.
    Pike has developed and been approved to administer a 
Department of Labor veterans' apprenticeship program. Our 
apprenticeship program allows new employees to enroll in the 
program, document their work history and training toward 
attaining a journeyman-level certificate or credential. 
Veterans with GI Bill benefits are eligible to draw a housing 
allowance from their GI Bill while they participate in the 
program.
    Some of those veterans also use their military 
apprenticeship program skills from their service in the 
military to boost their performance in our program. Pike is a 
participating member of a group called the Center for Energy 
Workforce Development. CEWD has developed a career roadmap for 
veterans to identify a path into the energy industry.
    So we have a roadmap. They have a jobs database. We have 
access to the jobs. It is simply gaining access to the service 
members.
    In our Talent Acquisition Program, we go to all of the 
military installations. We engage the service members as they 
are in their transition process. And what we run into is 
differing rules and regulations to access that transitioning 
workforce as they leave the military and enter the civilian 
workforce.
    What we run into is each base has their own criteria for 
gaining access. We also work with the Department of Labor. The 
Department of Labor has programs such as WIOA, the Workforce 
Innovation Opportunity Act, which allows us funding to train 
service members for jobs.
    The issue we run into is that workforce development boards 
determine how that funding is used in each local area. So some 
States have a workforce development board. In other areas--in 
North Carolina, for instance--we have 23 workforce development 
boards determining how to use the funds for our programs.
    You can see with 23 different groups setting rules on their 
own in individual regions how hard it would be to access that 
funding. Community college programs are often continuing 
education programs, and, therefore, aren't allowed in some of 
these other programs because they are not curriculum 
development. So resolving those issues would be key.
    We also work with the DOD Skill Bridge Program. DOD Skill 
Bridge allows service members to train while they are leaving 
the military, which is a great benefit to us because ewe can 
get some access to their services and skills.
    Anyway, I would like to thank you for your time today. 
Thank you for the opportunity to speak, and I look forward to 
your questions.
    [The prepared statement of Mr. Simpson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I want to thank you, and the Chair now recognizes 
Ms. Colon de Mejias for 5 minutes for purposes of an opening 
statement.

              STATEMENT OF LETICIA COLON de MEJIAS

    Ms. Colon de Mejias. Honorable Chairman Rush, Ranking 
Member Upton, and members of the subcommittee, I am Leticia 
Colon de Mejias of Energy Efficiency Solutions, policy cochair 
of the Home Performance Coalition.
    I founded Energy Efficiencies Solutions in 2010 in Windsor, 
Connecticut. My company has completed weatherization and 
comprehensive energy efficiency upgrades to over 12,000 
Connecticut homes and over 10 million square feet of 
multifamily housing. In addition, we have served churches, 
schools, and municipalities, and reduced energy demand and 
consumption in those buildings and communities.
    As the policy cochair of the Home Performance Coalition, I 
helped to identify policies and opportunities to advance the 
energy efficiency and home performance industries. We create 
local and well-paying jobs across every State in the Nation 
while simultaneously making our building stock more efficient, 
safe, and comfortable, and affordable by reducing the energy 
bills for millions of Americans in businesses.
    In addition to my work in the building science and energy 
sector, I have also worked as a workforce consultant for 22 
years. I have been the recipient of national awards for the 
Department of Energy and the Department of Education. And I 
have worked in engaging urban and minority populations and STEM 
education as it relates to energy literacy, civic engagement, 
and fiscal responsibility.
    I have personally trained over 150 people for jobs in the 
green industry in relationship to efficiency and renewable 
resources. I am honored to be here to testify in front of you 
today in support of the Blue Collar and Green Collar Job 
Development Act of 2019.
    As a female minority contractor and a small business owner, 
I am here to tell you that the energy efficiency doesn't have a 
jobs problem. We have lots of jobs to fill. The problem that we 
have is finding workforce that are ready and trained and 
certified to work in our industry.
    Efficiency, while not as sexy as solar and wind, is simply 
efficient. It gets the job done. And conservation is simply a 
conservative way to reduce our energy demands and lower bills 
for all Americans.
    We need the resources to help train our existing employees 
and to keep them up to date on their certifications and 
technologies and health and safety measures to make America's 
building stock great. What we need is a comprehensive 
nationwide program to improve education for the workers and 
efficiency and clean energy industries, including 
manufacturing, engineering, construction, and building 
retrofits. This is exactly what the Blue Collar to Green Collar 
Jobs Initiative would do.
    The energy efficiency and renewable energy industries 
represent a growing workforce, and in 2018 the energy 
efficiency jobs in America, the E4TheFuture report, reports 
that over 2.25 million Americans work in the energy efficiency 
industry. Efficiency is literally the fastest-growing job 
sector, adding new jobs which outnumber elementary and middle 
school teachers, nearly double, and law enforcement--and double 
the law enforcement officers that we have.
    More importantly, these jobs are local and cannot be 
outsourced, and 99 percent of U.S. counties have energy 
efficiency jobs. We have a real need to ramp up the 
implementation of workforce programs and prepare career 
changers like myself--women and veterans that I employ--and 
underrepresented minority and at-risk populations for the jobs 
that exist already today. We need to fill these roles to meet 
our Nation's demand for reliable and resilient energy 
production.
    I have served as the policy cochair for the Connecticut 
Workforce Consortium for 5 years. In this role, I have heard 
countless business owners explain the difficulties in hiring 
staff which have proper credentials and training to work in 
this industry. Many of these businesses are small. In fact, the 
majority of efficiency businesses across the country have fewer 
than 20 employees. I myself employ 22.
    These small businesses are the backbone of our country, and 
they are the ones that are in need of assistance when it comes 
to making new hires and investing in education and training for 
these employees and incumbent workers.
    One of the main pillars of the Blue to Green Collar Jobs 
Act is an energy workforce grant program which would provide 
assistance to businesses seeking to educate and train new hires 
or help existing employees move into higher level jobs. By 
covering the wages for these workers during the time they are 
receiving training, the program will significantly help small 
and medium-sized businesses invest in their employees.
    These are considered OGT training funding jobs, and I have 
personally myself participated in these programs and hired 
people. I have some people who still work for me 10 years 
later.
    Of particular importance, it is--I am pleased to present 
this legislation which gives priority to businesses who recruit 
employees from local communities, minority groups, women, and 
veterans. These are often hardest working people in our 
society, and they have already vested interest in bettering 
their communities. With the proper training, they can excel to 
positions in our economy and get off of things like subsidy, 
but we need to do this broadly as a nation.
    In addition to helping the businesses invest in their 
employees, we need to take action to engage young people and 
today's youth who will be tomorrow's workforce in the STEM 
education fields. As a contractor, I have spent 22 years 
encouraging underrepresented groups and ethnic minorities and 
women to enter the science and technology, engineering, and 
math fields.
    Through the Green Eco Warriors, which I serve as the 
president and cofounder, I have helped over 10,000 children in 
over 100 United States schools participate in these programs. 
It is important that we continue mentorship and training to 
increase emerging clean energy and efficiency in our economy.
    We must work together nationally on these goals, and I 
fully support the objectives embodied in the Blue to Green 
Collar Jobs Act. The goals in this program included will 
support economic growth and energy security in our Nation, and 
we will enhance the ability of businesses to invest in 
employees. And when we invest in our youth and employees, we 
prepare them meaningfully to contribute to our economy and our 
Nation, and that is a win for all of us.
    Thank you.
    [The prepared statement of Ms. Colon de Mejias follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Now I recognize Ms. Pramaggiore for 5 minutes for 
the purposes of an opening statement.

                STATEMENT OF ANNE R. PRAMAGGIORE

    Ms. Pramaggiore. Thank you, sir. Good morning, Chairman 
Rush. Thank you for the warm welcome. Exelon is delighted to 
serve the great city of Chicago, as well as our other great 
cities and communities, including the District of Columbia now.
    Good morning, Congressman Upton, and members of the 
committee. Exelon operates 6 utilities, is the largest operator 
of nuclear plants in the United States, and participates in 
retail energy markets in 48 States. I lead Exelon's 6 utilities 
which deliver electricity and natural gas to approximately 10 
million customers.
    We appreciate very much the opportunity to share our 
perspective today as your committee explores expanding 
opportunities in the energy field through the Blue Collar to 
Green Collar Jobs Act. We see tremendous opportunity in our 
industry as we transform the electric grid for the 21st 
century, and we are enthusiastically committed to creating 
pathways for the diverse people of the communities we serve.
    The electric power industry is a major economic engine for 
America. In addition to its role supporting every other sector 
of the economy, electric power generates significant economic 
activity in its own right, providing some 2.7 million jobs and 
$880 billion of economic impact.
    This is a snapshot of our industry as it exists today, but 
this industry is anything but static. In fact, it is 
reinventing itself to the traditional tenets of reliable, safe, 
and affordable power. The advances of the 21st century require 
we add the features of clean, resilient, and connected--
connected to more and more devices and uses to meet the 
country's needs.
    This is nothing short of a transformation that will require 
both retooling our current workforce and cultivating a 
workforce of the future with new skills and talents. In the 
next 10 years, job requirements in the electric power industry 
will include a need for more engineers to design a new grid to 
accommodate solar, wind, storage, and other clean technologies; 
information technology experts, skilled high voltage 
technicians who understand digital as well as analog 
technology; solar installers, wind turbine technicians, and 
energy efficiency experts and technicians. In other words, we 
need STEM workers, and increasingly we need skilled craft 
workers, particularly in clean energy.
    At Exelon, we are committed to diversity in our company and 
industry, and that commitment drove us to launch Chicago 
Construct, a unique job training program that increases skilled 
labor employment opportunities in the utility and construction 
arena for minorities in the Chicago region.
    More than 500 participants have completed the construct 
program in its 6 years of existence, and 80 percent of those 
participants were offered jobs by our utility or other 
construction companies that work with us and participate in the 
program.
    Right here in Washington, Pepco recently partnered with the 
district leadership to launch the DC Infrastructure Academy, 
similarly preparing District residents for well-paying careers 
in the electric utility industry. PECO has a similar program in 
Philadelphia, in partnership with the community colleges for 
gas industry workers.
    Another aspect of our commitment to developing the 
workforce of the future is increasing educational opportunities 
for women and minorities in STEM fields. Six years ago, we 
launched the Ice Box Derby, a summer program in which teams of 
young ladies from our communities are given the engineering 
task of turning recycled refrigerators into electric race cars 
and racing them at the end of the summer project.
    Delmarva Power has worked with Delaware State to create a 
renewable engineering program, and BG&E in Baltimore has 
launched a successful internship program for high schoolers in 
Baltimore City.
    As we work to build the workforce of the future, we welcome 
the support offered in this bill. The national effort laid out 
in the Blue Collar to Green Collar Jobs Act will help to ensure 
we have a diverse workforce with the right skill sets to help 
build this bold, new energy future.
    Innovation of necessity requires diversity. A diverse group 
of people sharing ideas and innovating together is truly the 
21st century's competitive edge. The transformation of this 
industry creates the need. The technical nature of the 
transformation means the jobs have a future, and the fact that 
this is occurring in the ubiquitous electric energy industry 
means the impacts will be seen in every U.S. community.
    Thank you very much.
    [The prepared statement of Ms. Pramaggiore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I want to thank all of the witnesses for their 
opening statement. We have now concluded opening statements, 
and now we will move to Member questions. Each Member will have 
5 minutes to ask questions of our witnesses, and I will begin 
by recognizing myself for 5 minutes.
    Ms. Pramaggiore, Exelon is one of the leading companies 
that have not only talked the talk but have actually invested 
its own money and resources into making sure that there is 
diversity in the ranks of a skilled labor workforce. Thus, 
Exelon knew the concept of training historically overlooked and 
underserved segments of the population, as our bill does, as 
solely a moral or social issue. Or is it preparing qualified 
minority women, veterans, and other targeted candidates in a 
way that is--for you is just good business sense?
    Ms. Pramaggiore. Thank you, sir. At Exelon, we believe that 
diversity in our workforce is all of the above. It is the right 
thing to do for our communities, but it is also smart business. 
We are entering, and in actually, a knowledge-based economy. 
Innovation is the coin of the realm. It is what will allow our 
economy to excel in the future.
    You don't get innovation without diversity. If you put the 
same people in a room together who have the same perspective on 
the world, you are not going to create and innovate. And so we 
think it is critically important to have this diversity in our 
workforce. And when we think about innovation, it is not just 
about creating technology, it is about the very smart people, 
as Mr. Simpson indicated, who are out climbing poles and on the 
line who can figure out a smarter, more efficient way to do 
something to improve a process.
    So we need innovation in every part of our business, and we 
think diversity is crucial to that.
    Mr. Rush. As I stated in my opening statement, Exelon is 
one of the most forward-looking utilities in our Nation. And 
you mentioned in your statement the connected communities of 
the future, which is located in my home district. And I look 
forward to highlighting this activity and this project.
    And you will host the Nation's first microgrid cluster, if 
I am not mistaken. And this project, the connected community 
project of the future, will help example the effectiveness of 
micro grids as a means for enhancing grid resiliency while also 
utilizing what you have termed to be community energy 
empowerment zones.
    Can you briefly discuss the concept of utilizing local 
talent, such as the Ideathon, where scholarships are awarded to 
prize winners at local schools as a way to foster excitement 
around energy and STEM fundamentals?
    Ms. Pramaggiore. Yes. Thank you. We view that our industry 
has not only technical and economic impacts but social impacts 
as well. And we have a project in the Bronzeville neighborhood, 
south of the Loop in Chicago, to build the world's first micro 
grid cluster. We actually have a grant from the Department of 
Energy. We are building a micro grid, which is a small self-
sufficient grid, in the Bronzeville neighborhood.
    It will connect to a campus micro grid at Illinois 
Institute of Technology. The two micro grids will actually be 
able to dispatch generation back and forth, and it is a very 
new and innovative project. The idea is that if you have 
disruptions on the grid, you can actually isolate portions of 
the grid to make the grid more resilient.
    We looked at this project as very much an exciting 
technical project, but we also wanted to involve the community. 
So we worked in a number of different programs. We have a ride 
sharing program for seniors, electric vehicles, partnered with 
electric vehicle company to do that. We have used diverse 
engineering talent to help us design this micro grid from the 
local Chicago community.
    And we launched an Ideathon at one of the local schools 
involving about 8 of the area high schools, bringing in high 
schoolers to form teams, working with teachers as well as ComEd 
and Exelon engineers to create projects and compete for 
scholarship money.
    So we have already created a curriculum at Dunbar High 
School around the micro grid. It is a 70-hour curriculum. So we 
are really looking to take this exciting technical project that 
is occurring in the community and involve the whole community 
and be able to bring--you know, bring our kids into this new 
energy world.
    Mr. Rush. My time is up. The Chair now recognizes the 
ranking member, Mr. Upton, for 5 minutes.
    Mr. Upton. Well, thank you, Mr. Chairman. And I want to 
thank all of you for your testimony. There is no question that 
we need to increase STEM education. We know the real need to 
increase diversity, and we also know the opportunities that 
should be there as we look to jobs in the future and the need 
for qualified folks to be able to tackle those jobs and to earn 
good wages for their families.
    A couple of questions. Mr. Simpson, I was prompted by your 
introduction. I know that your company, Pike, was not 
associated at all with Whitefish, but there were a number of us 
on this committee on a bipartisan trip that went down to Puerto 
Rico shortly after the hurricane, and we saw firsthand the 
devastation that was there. I think we were all appalled by the 
lack of progress to really connect people back with the 
difficulties that I think still remain there.
    You talked a little bit about Pike being a company that 
works with putting lines underground as well, and I think for a 
number of us that witnessed what went on in Puerto Rico, you 
know, this is going to probably happen again at some time in 
the future. And wouldn't it be a lot smarter to actually build 
these lines underground than having them exposed to the 
elements that we saw with the devastation that was there?
    Did you all actually do any underground work in trying to 
put Puerto Rico back together again as it related to the power 
structure there?
    Mr. Simpson. Sir, to my knowledge, no. We were rebuilding 
the grid that was already in existence, so we weren't doing 
modifications or changes necessarily.
    Mr. Upton. Did anyone ask, or did you all raise your paw 
and say, you know, this is something that might be worthwhile 
to do?
    Mr. Simpson. I am not aware, sir.
    Mr. Upton. OK. Maybe if you could come back to us?
    Mr. Simpson. Absolutely.
    Mr. Upton. And I know this is a little bit--was out of 
bounds from your testimony today. In your testimony, you gave 
an example about commercial driver's licenses where veterans 
could get a waiver based on their military experience. I think 
that is a very good idea as we try to encourage vets to get 
into this sector.
    What are some of the other areas perhaps, beyond that, that 
we might be able to make a difference that would involve and 
encourage more veterans to be involved?
    Mr. Simpson. Sir, I think if you look at the educational 
system itself, if you look at the Workforce Innovation 
Opportunity Act, and the uses of those funds, and identify 
specifically that veterans entering into an energy type of a 
curriculum would be allowed to use those funds whether it is at 
a curriculum-based program or a continuing education program, 
that the funds would still be available, that that would make a 
huge difference. And it is money that is already set aside 
through the Department of Labor to fund this training.
    So it is just tweaking the way we use the funds that are 
already available. Other things, the GI Bill. The GI Bill 
doesn't currently allow the use of funds from the GI Bill for 
continuing education type courses. They have to be degree-
granting types of courses. So our GI Bill is actually forcing 
people to go to college for a degree that they don't 
necessarily want, just to attain the job skills to get into the 
workforce.
    And then, of course, with the Federal Motor Carrier Safety 
Administration, the waiver that you discussed for the CDL, that 
waiver is only good for 12 months. If I drove a truck for 10 
years in the military, it is very doubtful in the 12 months 
that I am going to forget how to drive that truck, yet my 
skills have to be qualified very quickly or I lose the 
opportunity to attain that CDL.
    So I think expanding the opportunity to get the CDL not 
only to different populations in the military--I was supply 
chain. My job is not truck driver, but I assure you most of my 
guys had CDL-type licenses to operate equipment because it was 
required to move things around in theater.
    Mr. Upton. Thank you. Ms. Mehnert, congratulations on what 
you have done, and your daughter is waking up now. What are 
some of the greatest challenges that you see to try and 
increase women in the workforce in this field? You--as one that 
has gone from a really large company to what you are doing 
now--what are some of the things that we can do to encourage 
more women to participate?
    Ms. Mehnert. Really, the number one answer is visibility. I 
am often struck by the lack of knowledge around what 
opportunities exist, what skills are required. So the joke is, 
everyone thinks I am an engineer. I am actually educated as a 
journalist by background, so I tell people I am a people 
engineer, and I make it my business, you know, to learn, to 
show, you know, curiosity, to ask questions.
    It wasn't until I went to an offshore rig, lived in a man 
camp literally, and had been to petrochemical facilities and 
sites all over the world that I truly had an appreciation for 
what it takes out of a very complicated value chain to get 
energy to live, and why I did a study not too long ago that 
looked at perceptions, positive perceptions of industries as a 
whole.
    And it is probably no surprise to anyone in this room that 
the tech industry is seen as the most popular place, you know, 
for anyone to work. But at the end of the day, energy drives 
those things. And I just think that when we talk to young 
people, when we talk to just--you know, the population at large 
does not understand what it takes to get energy to the 
doorstep, and the more technology we use, the more we expect, 
you know, the more things we do, people need to really 
understand that.
    So I think visibility of the opportunities and really 
driving people to understand that this is a great place to work 
and it is a meaningful place to work.
    Mr. Upton. Thank you. I know my time has expired. Thank 
you.
    Mr. Rush. The Chair now recognizes the chairman of the full 
committee for 5 minutes for questioning.
    Mr. Pallone. Thank you, Chairman Rush. And I want to stress 
how important this hearing is, and I am pleased we are able to 
continue--can you hear me? All right. Well, let me just--I just 
thank you, Chairman Rush, for continuing--starting and 
continuing the committee's efforts to expand training and 
promote diversity. I know we have done this on a bipartisan 
basis always, and he has always been out front on it.
    But let me start with Ms. Pramaggiore. In your testimony, 
you discussed the need to focus on clean energy jobs, and I 
thought it was interesting when you mentioned that consumer 
preference is driving companies like yours to make cleaner 
energy choices. And as a result of those trends, the vast 
majority of job growth in the energy sector currently comes 
from clean energy jobs.
    So just a few questions. Where are you currently seeing the 
largest share of job growth at your company? How is that 
focused on newer and expanding technology, such as renewable 
energy or grid modernization, for example?
    Ms. Pramaggiore. Thank you, sir. We have clean energy, 
distributed energy, coming on to our systems across all of our 
6 utilities, and that requires us to rethink how we are 
designing the system. The system has to be much more dynamic. 
It has to be much more automated as we think about having 
variable resources on the system that are not always there, and 
so you have to adjust the grid to take them when they are there 
and adjust when they are not.
    And so to answer your question, we are looking for--we 
always have job growth in the skilled craft areas, and skilled 
craft who understand analog as well as digital technologies is 
going to be important in the future. Data scientist is a huge 
area for us. We now have sensors all over the grid that tell us 
what is going on in a way that we didn't before.
    We have to be able to take that information in and do 
something with it in a very short order. And so data scientists 
who can help us crunch that data are very important, and there 
is a shortage of data scientists in the United States. We need 
power systems engineers who also understand information 
technology. Those are some of the big areas from the utility 
side of the business that we are in need of as we bring on 
these new types of resources onto the system.
    Mr. Pallone. And I assume that you will tell me, but those 
are the areas where we need the--we should focus the training, 
correct, in those areas you just mentioned?
    Ms. Pramaggiore. For our business as the utility, but you 
have a tremendous number of companies out there who are in the 
business, in the solar business, in the storage business, in 
energy efficiency.
    My company, through our multiple utility, spends $600 
million a year on energy efficiency programs that help 
customers reduce their bill and control their energy usage. 
They are hugely important. We don't do that work ourselves. We 
hire other companies who bring in those workers. So there is a 
whole universe of connected companies that will need--you know, 
need workers who can do the installation of solar, energy 
efficiency work in homes, and that sort of work.
    Mr. Pallone. Now, is that a different challenge to build 
the workforce for--you know, for offshore wind or more 
efficiency, you know, the efficiency jobs that you are talking 
about as opposed to, you know, more established technologies 
like coal and natural gas? Does that involve a different 
challenge?
    Ms. Pramaggiore. Well, I think because they are new, you 
know, we have got a pretty good, you know, track record in the 
industry of producing the kinds of skill sets that serve the 
grid that we have and the kinds of resources that we have--
nuclear, you know, coal, gas. These new resources, they are 
new, so you just need to develop that pipeline. I would say 
that is the only difference. I don't think the skill sets are 
particularly unique, but they just--we haven't had that 
pipeline in the past.
    Mr. Pallone. But is it important for us to--because my time 
is running out--is it important for us to focus in building a 
workforce on those newer industries, renewables, efficiency, as 
opposed to emphasizing, you know, the legacy sectors at this 
point in order to be successful and create a workforce?
    Ms. Pramaggiore. Well, I think you need both. I think there 
is momentum in the legacy sectors. You have got that sort of 
foundation. I think the new sectors, you know, require some 
momentum, a push behind them, and that would be--you know, that 
would be the difference.
    Mr. Pallone. OK. Thanks so much.
    Ms. Pramaggiore. Thank you.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Rush. The Chair now recognizes Mrs. McMorris Rodgers 
for 5 minutes.
    Mrs. McMorris Rodgers. Thank you, Mr. Chairman. Thank you, 
everyone, for being here. I appreciate the witnesses and 
hearing each of your perspectives, especially on the importance 
of green energy and the infrastructure and the workforce 
necessary to meet our Nation's energy needs.
    I am a proud supporter of a wide variety of clean energy 
initiatives, including hydro power, which is--it plays a 
dominant role in my district in eastern Washington, as well as 
all across the country. And clean, renewable, reliable hydro 
power I believe needs to remain part of the solution as we have 
these discussions moving forward. It also is very important in 
many of the rural communities that I represent.
    I also appreciated hearing your thoughts on how we improve 
diversity in the energy sector, and I wanted to ask a question 
of Ms. Mehnert. Really applaud your leadership at Pink Petro. 
It was great to hear of your work, and really focusing on 
addressing the lack of diversity within the energy companies.
    Appreciate you working also on an all-of-the-above energy 
approach. So I know that we would like to have--we are not 
going to hear from DOE today, and I think that we should have 
included them. I am hopeful that my colleagues across the aisle 
will open up this process as we consider this legislation to be 
more inclusive of women in energy.
    As a woman that works every day to make her mark in a 
traditionally male-dominated field, I believe it is crucial to 
support those who serve as role models and encourage young 
women in this country to strive for jobs that are typically 
found in the male-dominated fields.
    So to Ms. Mehnert, as a woman with a background in oil and 
gas, how do you recommend--I know you have spoken some to that, 
but I just would like to give you some more time. Any specific 
recommendations on how we open up traditionally male-dominated 
fields to women? And especially those in the rural areas. What 
kind of approach do you believe is most valuable in targeting 
women and other minorities who are underrepresented in the 
energy sector?
    Ms. Mehnert. Thank you so much for the question. I believe 
engagement is key, having face-to-face conversations. A number 
of years ago when I worked for Shell, we did a 50-city tour, 
and we had conversations with Americans. We had conversations 
with people to try to understand their perceptions.
    I think the way to reach people, too, is through social 
media. We live in a world where information is ongoing. 
Information is more readily available today than it has been in 
the past. And so I think that it is key that we use digital to 
reach folks, but also have real, honest conversations about 
these opportunities and make those opportunities available and 
visible to those communities.
    Mrs. McMorris Rodgers. You spoke about the importance of 
role models and mentors and the work that you are doing there. 
I have two young daughters. They are 8 and 5. And part of what 
I have learned is the importance of reaching our girls younger 
and introducing them to what is available much younger.
    I really applaud your work to create this Lean In Energy 
mentorship program, which is really trying to reach women and 
partner them with the mentors. I would like to just hear you 
talk a little bit more about how you have gone about recruiting 
both the mentors and the mentees, how do you go about 
identifying individuals to serve as mentors, and those that 
wish to be mentees.
    Ms. Mehnert. So thank you for the question. When I launched 
Pink Petro, what we found was that women wanted access to 
mentors and mentees, and we--I decided that because I am a for-
profit company that mentoring was not something that I was 
going to, you know, commercially monetize.
    And so we sought to develop a nonprofit organization that 
all companies could participate in funding, and what we did was 
we flew to Silicon Valley, I met with a number of technology 
companies, and through my own experience with Pink Petro what 
we learned was that technology can connect.
    So we have been able to use social media to get the word 
out. What we have found, interestingly enough, is we have--10 
percent of our community are male mentees. So it is kind of 
interesting when you use technology to harness the power of 
diversity, bringing people together, accessibility. It is a 
pretty powerful outcome to be able to bring folks together.
    So we just launched the platform a few months back, and we 
are in our first round right now and I look forward to getting 
more results as we progress.
    Mrs. McMorris Rodgers. That is great. Great to hear. I, 
first of all, appreciate that my parents always encouraged me 
that I could be anything that I wanted to be. But I am also 
grateful for the male mentors in my life and believe that we 
need both, and we need those role models and those that 
dedicate to that next generation. So thank you all very much.
    Mr. Rush. The Chair now recognizes Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman. I want to thank you and 
Ranking Member Upton for calling the hearing today. Boy, I tell 
you, workforce development in Pittsburgh, we have 9,000 jobs 
open that aren't being filled because we don't have people with 
the skill sets that are needed to fill those jobs. And I can't 
tell you how frustrating that is when we see this disconnect 
between what--you know, the jobs that are out there and the 
skill sets people need, and we are not making those marriages.
    I had convened a group of 30 CEOs in my city, and I asked 
them what kept them awake at night, you know, taxes, government 
regulation. It was none of those things. It was--one CEO 
pointed at another and said, ``I am afraid he is going to steal 
my employees.'' That is how desperate the situation gets.
    But we also realize, you know, we have universities like 
Carnegie Mellon and University of Pittsburgh that have these 
great programs in technology, but you have got to get to these 
kids in grade school. That is what I think especially in the 
underrepresentative communities. Young people don't understand 
what a career in STEM looks like because maybe nobody in their 
neighborhood or in their house is in that field.
    So how do we expose young people, especially in 
underrepresentative communities, to STEM? And what can we be 
doing--and maybe I will start with you, Ms. Pramaggiore. What 
can businesses like yours do to partner with early education 
centers to start to introduce these kinds of programs at the 
grade school level, so that as children go through the 
process--because a lot of STEM, you know, starts with very 
simple things at an early age, that it keeps building upon it, 
and it--you know, it puts more people into that track where 
they can be trainable.
    So what can business--because that is what I said to the 
CEOs. I said, ``This is a problem. What are you doing about it? 
You know, how are you reaching out into these communities and 
getting them?'' So I am just curious. You have got a very 
progressive company that has done a lot of these things, and I 
am curious to hear what business can do to expand those kind of 
programs.
    Ms. Pramaggiore. I think we absolutely have a 
responsibility here. You know, we have done a lot of research 
on why women and people of color aren't in the STEM field. I 
call it the three A's--awareness, access to educational 
opportunities, and what I call attitude, which is really about, 
do I see myself in that industry? Do I feel like I have the 
confidence to make a step into that kind of an industry? And 
those are the three things that tend to develop that we see 
that you have to--you know, you have to cut through.
    And I absolutely agree it starts very young. One of the 
things that, you know, we have studied is the fact that 
summertime is so critical for young people, that kids who get 
experiential learning and opportunities and spend their 
summers, you know, being stimulated do so much better than kids 
who don't have those opportunities.
    One of the reasons why we started some of the summer 
programs that I referred to, the Ice Box Derby, it is for girls 
a little bit older. We start in middle school into high school, 
but to bring these kids in in the summer and give them an 
experiential learning, that access to experiential learning 
awareness that there is these jobs out there.
    And then, finally, the confidence. They meet with other, 
you know, professionals, who they can relate to and work with 
them. So we are doing that at the high school level, middle 
school level. We have educational programs that get out into 
the elementary schools. We work to help develop curriculum that 
we then train teachers and provide to elementary and middle 
schools.
    So we are looking to--you know, to encourage--you know, 
raise awareness, provide educational opportunities for younger 
and younger people, and I completely agree you have got to get 
to them early, and the summertime becomes critically important. 
So we do--you know, we work on programs that keep these kids 
engaged over the summer.
    Mr. Doyle. Yes. And I think they need to see what a career 
in these fields looks like. I remember the first time I went 
into Google in Pittsburgh. They have a large presence in our 
city, and the first thing I noticed when I walked in there, 
they had a pool table and a pinball machine, and they ate for 
free. And I was thinking, this is a cool place to work.
    So what do you have to know to work at a place like this? I 
will tell you, if grade schools were taking kids through 
companies like that, a lot of kids would be saying, ``What have 
I got to do to work at a company like this?'' And I do--I think 
that is so important that we start to reach down at the lower 
grade levels and make these matches.
    And it also seems to me that, you know, community colleges 
and other institutions in the area I think need to do a better 
job talking to employers and saying, you know, what are you 
looking for? A lot of these jobs don't require a graduate 
degree of Carnegie Mellon, but they do require some specialized 
training that some people can get in a 2-year program, and then 
go outside and actually get a job that pays a family-sustaining 
wage.
    I see a lot of kids going to college with bachelor's 
degrees in journalism--just kidding--and, you know, $30-or-
40,000 of student loan debt on them, and they can't get a job 
that pays any money is the problem.
    Ms. Pramaggiore. If I can respond, I think businesses are 
becoming more and more aware of community college 
opportunities, to have those, you know, more truncated degrees, 
but that actually end up with some sort of certificate that 
allows somebody to go out and get a good-paying job. I think we 
are getting better at that. I think we have got a ways to go.
    Mr. Rush. The Chair now recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair. To start out the first 
subcommittee hearing in a very bipartisan manner, I want to 
thank Mr. Doyle. He is a proud cosponsor with myself of a bill 
that will be dropped tomorrow that is designed to help FERC 
fill some very needed open positions for pipeline safety.
    We are doing this, but I gave them a chance to charge 
market salaries, give market salaries to FERC employees, so 
they don't lose them to the private sector. This will be 
dropped tomorrow, so thank you, Mr. Doyle.
    Also, congratulations, Chairman, on your ascension to the 
chairmanship of this committee.
    Welcome to all the witnesses. A special welcome for Mrs. 
Mehnert. You and I have a same bond--Rice University. I know 
you are hearing some tough times. November, LSU 72, Bill 
Flores' A&M 74 in seven overtimes. January, uncalled mugging 
that cost the Saints a chance to play the Patriots in the Super 
Bowl. And now you are here in the primetime for crawfish boils 
back home.
    So thank you very much, and thank you, Ally, for joining 
your mom this morning. She dropped off one more time.
    [Laughter]
    Mr. Olson. This bill is important for me because I 
represent the most diverse district in America, Texas-22. The 
census that will come out in 2022 after the census is taken in 
2020, we expect my home county of Fort Bend to be 25-25-25-25 
percent divided equally between Asians, Hispanics, African 
Americans, and Caucasians. And that is why I want everybody, 
regardless of creed or religion or race, to have a good, high-
paying job in the energy sector.
    And I am proud to have local partner schools, like Wharton 
County Junior College, Alvin Community College, and San Jacinto 
College, involved in this endeavor to open those jobs up to all 
colors. These schools are running 2-year programs that give all 
Texans a chance to learn key skills and get work without going 
to a 4-year university.
    For example, for this upcoming fall 2019 enrollment, about 
58 percent of STEM majors at Alvin Community College are 
minorities. Minorities, 58 percent. At San Jacinto College this 
past fall, that was almost 80 percent. That is incredible. That 
is Texas-22.
    But, of course, Mr. Chairman, we have some work to do here 
in DC. I am still reviewing your new bill. There were big 
changes from the last Congress, but I hope we can come together 
and get something done on this important issue.
    I want to ask you all--I will start off with you, Mrs. 
Mehnert--one theme here is over and over to get kids into STEM, 
we have two challenges. First of all, they don't think it is 
cool. It is cool to go to Wall Street. It is cool to go to 
Silicon Valley. It is not cool to go into energy. It is low 
tech. It is not low tech. We all know that.
    Also, as was mentioned, we try to capture them at the 
college level. That is way, way, way too late. So my question 
is: have you all talked to local school districts, local--kind 
of get them engaged, try to catch maybe middle school, maybe 
elementary school.
    Mrs. Mehnert, you are up first, so just go around the table 
there.
    Ms. Mehnert. Great. So I absolutely agree we need to reach 
sooner. My daughter is 8. I talk about energy all the time. I 
think the two DOEs--the Department of Education and the 
Department of Energy--need to talk together about elementary 
level education, right? We need to look at what we are 
teaching, how we are exposing kids.
    We have great schools in Texas, the energy high school. We 
have a number of ISDs that have STEM-focused education. It is 
too late, though. It is way too late to reach kids in high 
school. We have got to get to kids much earlier if we think 
that we are going to be successful at getting them in energy.
    Mr. Olson. Mr. Campbell?
    Mr. Campbell. Yes. I was just going to add, kids love 
technology, and once they--I think the biggest thing is access. 
We work with a lot of schools. I do a lot of mentoring with 
elementary school and middle school students. And once you can 
do the tie-in to say, you know, this is how your iPad is 
powered, this is how your PlayStation is powered, they get it. 
I think the biggest thing is showing up.
    And to your second part, we have to make it cool. And one 
of the things, we work very closely with the Dream Corps, and 
they have done an excellent job of doing unique events where 
they will bring in diverse artists to reach a younger 
population, and there is emerging things like the Broccoli City 
Festival in DC, which brings over 100,000 people yearly to talk 
about sustainability in energy.
    So I just think there is a tremendous amount of 
opportunity, but we have to show up, and kids need to see role 
models and really break it down to them. And once they get 
that, they are very engaged.
    Mr. Olson. And one form, too, back home is robotics 
competitions. Kids do these amazing things with robots. They 
get involved in science, technology. I played a banana peel 
piano, banana peels, dried banana peels wired up with wires. I 
played Chopsticks at a local elementary school.
    So thank for your time. I am out. I yield back.
    Mr. Rush. Mr. McNerney is recognized for 5 minutes.
    Mr. McNerney. Well, I thank the chairman. It is always 
tough to follow the gentleman from Texas, but I will give my 
best at it there, Pete.
    I thank the witnesses this morning. Ms. Pramaggiore, given 
the lack of new nuclear construction, can we ensure that there 
is a trained workforce for advanced nuclear such as small 
modular reactors?
    Ms. Pramaggiore. So we are, obviously, quite interested in 
that as a business--our nuclear skill sets--and we do fund 
nuclear scholarships for engineers to ensure that, you know, we 
have got a strong pipeline. But it is something that concerns 
us. It concerns us as the nuclear power industry wanes.
    I don't think that that is a skill set that we want to 
concede to the rest of the world. I think that we want to 
maintain our dominance, our leadership, in nuclear skill sets, 
and I think it is a very important area. As I said, we devote a 
significant amount of dollars to scholarships to bring people 
through the nuclear programs and the nuclear engineering 
programs, but I think it is something that we should pay 
attention to.
    Mr. McNerney. Thank you. Well, in California, the wildfires 
are an increasing threat, and I would like to expand the 
definition of workers in the energy to include jobs that make 
sure our system is resilient, such as clearing out underbrush 
around our transmission lines. Can you speak about the 
diversity in that sort of job?
    Ms. Pramaggiore. So vegetation management is, you know, 
what we would call that, and it is very important to manage, 
you know, the vegetation around our lines and our systems. 
Obviously, California has felt that, you know, quite acutely, 
but we see that across the United States.
    You know, there is a fair amount of diversity in those 
ranks, but I do think there is opportunity there as well, and I 
think that we will see those businesses grow also. One of the 
things we have looked for in the vegetation management ranks is 
to find additional--there are some companies that are quite 
strong and quite large that do this, and, you know, we would 
like to see--you know, we like to help companies grow. So the 
opportunity to grow small businesses, diverse businesses, I 
think that is an area of tremendous opportunity.
    Mr. McNerney. Thank you. Ms. Truong, do you have any data 
on the number of jobs per unit of energy produced in the 
renewable or clean energy fields versus the fossil fuels?
    Ms. Truong. That is a level of metric I don't have access 
to. But I will say to your question around, how do we actually 
begin to address the opportunities that we are seeing in 
California where we literally saw Paradise burning, and the 
opportunities for us to diversify the workforce for a State as 
diverse as California.
    I think what we need to begin thinking about is really, how 
do we create the supply and demand that we need in order for 
this to happen? In the policy realm, we really need to think 
about diversifying our supply from grade school on to on-the-
job experience with employers to others. We can create a demand 
for diverse workforce.
    But having policies that actually incentivize that, at the 
school level, with on-the-job employment, with on-the-job 
internship and opportunities, to making sure that we are really 
demanding that through policies, having a demand for renewable 
energy, having a demand for clearing the underbrushes around 
the grids, having a demand for those, actually creates the 
opportunities for the people who actually get trained to get 
jobs that are going to be created by these employers.
    Mr. McNerney. Thank you. Ms. Colon de Mejias, what does 
certification in energy efficiency look like? Is that sort of a 
degree, or what does it--what do you mean when you say 
``certification''?
    Ms. Colon de Mejias. So there are multiple careers in 
energy efficiency. HVAC is a career, an insulator is a career, 
energy assessment is a career, and each of those has their own 
set of certifications. So, for example, there is a Building 
Performance Institute that certifies building scientists as 
analysts or envelope specialists. That ensures that when you 
are running a building that you take into account all of the 
factors that it requires.
    Energy is something that, like air, we don't really think 
about, but we are using it from the moment that we are waking 
and even while we are sleeping, right? It is a huge demand as 
every part of our daily life. And so what my industry does is 
look at the way that those things work together and ensure 
safety and high performance. So there are all kinds of 
certifications you could get in my industry.
    Mr. McNerney. Thank you. Mr. Campbell, what is the match up 
of employment opportunities in the energy field versus the 
geographic available potential employees?
    Mr. Campbell. Can you repeat the question?
    Mr. McNerney. Yes, sure. What is the match up between job 
opportunities in the energy field and the geographic 
availability of workers to take those jobs?
    Mr. Campbell. Yes. Very good question. So, I mean, there is 
parts of the country that when you look at renewables that you 
see more, for example, in solar, and that is more driven by 
State policy, renewable portfolio standards. In California, for 
example, you have a very aggressive renewable portfolio 
standard. But then as parts of the country in the south, like 
North Carolina, South Carolina, where they have passed better 
renewable portfolio standards, that you are seeing solar there 
as well, too.
    But if you just take a step back and look at energy jobs in 
general, you have got generation, which is all across the 
country, whether it is natural gas, solar, wind, geothermal, 
biomass. We have resources all throughout the country. The 
delivery as far as getting that energy to consumers and 
businesses, that workforce is all throughout the country.
    And then we talk about storage and micro grid, and one of 
the things that we haven't talked about is electrifying our 
transportation sector. And that is one of the biggest sources, 
if not the biggest sources, of carbon pollution. And most 
utilities across the country are now looking at how to 
electrify the transportation sector.
    So I think all of these opportunities are geographically 
constrained, I think the opportunity across the board.
    Mr. McNerney. Thank you. I will yield back, Mr. Chairman.
    Mr. Rush. I thank the gentleman, and now will recognize Mr. 
McKinley for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. This is something 
you have been interested in I know for years, and I really 
welcome having this discussion. If for no other reason, it 
helps to underscore the diversity or the differences we have 
between urban and rural settings, because this panel primarily 
is all from urban centers. I see them from District of 
Columbia, from Connecticut, California, but I have not seen it 
from the coal fields.
    And so my concern here is when I think about--in the 
corridors of--in West Virginia, in Kentucky we have got Harlan, 
Kentucky. In West Virginia, we have Gary, West Virginia, Welch. 
We could go on. We could say--War, Big Chimney, Thurmond, all 
of these little communities. All of you have ignored this 
transition. All of you.
    Where are we going to put--where are we going to train 
these people for--it may be, indeed, a movement into the 
renewable energy field. But are we going to do for those 
communities? Companies for years have ignored them. They are 
not investing in Thurmond or Welch or other--all across, not 
just West Virginia, but Kentucky and Wyoming and elsewhere. 
There is a reason that companies haven't located there, despite 
the incentives that might be out there, as promulgated or put 
forth in this legislation.
    So I was hoping that we would hear how we help those 
communities, because I know the chairman and I have talked 
about that. How do we reach out to those people to help them 
make this transition? And that transition may be, as it was in 
the '50s after the war, they left and they went someplace else. 
That may be the solution. They have to abandon war in Thurmond 
and Big Chimney and Harlan.
    I want to know who is going to buy their homes. I want to 
understand what we are doing with this, because for the coal 
miners and their related industries their biggest asset is 
their real estate. And so when we tell them, you can get a job 
in creating solar panels, but it is just not going to be in 
Thurmond, so you will have to locate someplace else. What 
happens to them? What happens to the community? What happens to 
the school systems, the churches, the fire departments, 
anything else that occurs with them, when we abandon those 
communities to do our retraining for someplace else.
    And we can--I know it is a noble idea to talk about the 
transitioning over to the renewables, and the possibilities for 
that. But I am enormously frustrated with that. I don't 
understand why we are not helping to transition using the 
resources and assets that we have to be able to make a better 
transition from fossil fuels to that later on by doing 
innovation, finding out how we use what we have cleaner and 
more efficiently, but that is not the program. That is not what 
I am hearing coming up in this discussion.
    All of it seems to be--I know you are chomping at the bit, 
and maybe I could soften it. I am just looking at a little 
county, Pleasants County, West Virginia. That because of rules 
and regulations that have been promulgated here, they are going 
to lose a power plant there that represents 30 percent of all 
of the revenue generated for that county. Thirty percent. What 
are they going to do for their education system? It is just 
going to collapse.
    Or you can go out to Arizona to the Navajo and the Hope 
Tribe, where they have a generating plant out there that is 
being threatened. And we are saying they can be trained. That 
is fine. But if they--what they are doing right now is 30 
percent for the Navajo Tribe comes from that power plant; 85 
percent the operation of the Hopi Tribe.
    Folks, let's be realistic about it. These people like being 
in their communities. They like being there. That is why they 
are there. What are we doing to train them there? What jobs are 
going to go there for them? Are we making--by this, are we 
saying you have to leave your town?
    I have run out of time, but, Ms. Mehnert, do you have some 
thoughts?
    Ms. Mehnert. I have a thought, and I think the thought is 
this is the group that needs to think about that, because we 
are all--we all come from a different place. We all come from 
different parts of the sector. The oil and gas industry is a 
boom-bust, OK? I see this all the time. We rush into an area, 
right, and when prices collapse we leave.
    And so I think it is something we need to think about, 
working together, because over time we are going to have these 
challenges of displaced workers, and we need a way to solve 
that problem. But I think this is a group to ask of thinking 
about what that might look like.
    Mr. McKinley. You see, I am--how do we do them, train them, 
so that they can work in Thurmond or War or Big Chimney, not 
abandon their towns to go someplace else? That is what I have 
not heard. And I hope somehow in this--as this legislation 
matures over the next year or so that we will have more of an 
opportunity to talk about how we take care of the folks that 
are living in those towns, not about the future.
    Ms. Colon de Mejias. I would like the opportunity----
    Mr. Rush. Do you want to answer?
    Ms. Colon de Mejias. Yes. I would love the opportunity to 
respond. I haven't had much opportunity to say anything, and I 
am a minority, and I am a female, and I am a business owner, 
and I have trained people in workforce. It is what I do.
    And the intention of this bill, to my understanding having 
read it, and the summary, is that we would be looking to train 
people in their communities. So Connecticut actually isn't an 
urban center. It is quite suburban, and we do serve the entire 
State of Connecticut. But I am not the only State that does 
that. These jobs that we are talking about creating training 
for, they exist already, and those people who work in 
Pennsylvania or West Virginia absolutely could participate in 
working in this industry and make really good earning wages.
    And so the intention of this would be to engage people, 
one, at a younger age in the public school system and introduce 
them to science-based concepts to prepare them for the jobs; 
and, two, the people who are displaced workers, it is to train 
them to take the positions that are available right now today, 
to be part of the community and work and engage in active----
    Mr. McKinley. Ms. Colon de Mejias, I am sorry. I have run 
out of time. They are already making a good wage. They are 
making $80,000 a year, but because of regulations and things we 
are imposing on them in Washington, they are losing their jobs. 
That is why the decline in the fossil fuel industry across this 
country. We are taking those wages away, and we are going to 
replace them with something that is a hope that something will 
happen for them.
    I yield back.
    Mr. Rush. Mr. Loebsack is recognized for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. I am going to have to 
look around my colleague, Ms. Barragan here, because I want to 
direct my first question at least to Mr. Simpson. But before I 
get to that, I would like to brag about Iowa and how well we 
are doing when it comes to wind energy. We are at almost 40 
percent of our electricity generated by wind.
    We have got 66 solar companies, over 800 jobs. We are doing 
a pretty darn good job in the State of Iowa when it comes to 
renewable energy, and we do take an all-of-the-above approach 
to it. We have a nuclear plant, coal-fired plants. A new 
hydroelectric plant is going in in my district as we speak, 
too.
    But these are great jobs that get created by all of these 
different approaches, you know, to our energy portfolio, but 
especially in that renewable field, we are very proud of the 
thousands of jobs in wind energy and solar and what have you, 
as I mentioned.
    Workforce development is a big issue. We started up in 
northwest Iowa in 2004 at Iowa Lakes Community College. They 
have a wind energy program up there, and other community 
colleges throughout the State have adopted that program as 
well. Kirkwood in Cedar Rapids has a big wind turbine on its 
campus, and so they do train folks there.
    But I want to go to Mr. Simpson to begin with. Thank you 
for your service, first of all, in the Marine Corps. I did not 
have the honor or privilege to serve in the military myself, 
but I have a stepson and his wife who are both active duty 
Marines still at Camp Pendleton, so I want to thank you very 
much for that service, and your focus on veterans.
    You brought up a couple of things in your testimony today. 
You mentioned a veterans apprenticeship program. Can you 
elaborate on that a little bit, what that is exactly?
    Mr. Simpson. Yes, sir. So there are a couple. So the 
military has several occupations that are recognized already by 
the Department of Labor through the U.S. military 
apprenticeship program where your job you do in the military 
gains credited hours toward an apprenticeship.
    Mr. Loebsack. As should be the case.
    Mr. Simpson. So that is one of the things that already 
exists. And as industries, we have the ability to implement VA 
and Department of Labor approved apprenticeship programs to 
train our new workforce as they come on board. So that is what 
Pike has done is establish a training program approved through 
Department of Labor and the Veterans Administration.
    Mr. Loebsack. And you mentioned one of the roadblocks that 
you face is that when you go to these different bases, each one 
has sort of its own rules and regulations as to how you can 
gain access; is that correct?
    Mr. Simpson. That is correct, sir. As I mentioned in my 
testimony, you know, as simple as North Carolina, Fort Bragg 
has one set of rules, Seymour Johnson Air Force Base has 
another, Camp Lejeune Marine Corps Base has a different set of 
rules, and then Marine Corps Air Station Cherry Point, 50 miles 
down the road that falls under the same command, has different 
rules.
    Mr. Loebsack. Yes. I was on Armed Services for 8 years. I 
understand your concern about the different rules, and I don't 
want to put you in the hot seat too much here. It is not really 
your job to figure out how the DOD should deal with this, but 
do you have any thoughts about how we can standardize access 
across bases? Any thoughts at all on that?
    Mr. Simpson. I do, sir. I think if--when you look at the 
transition program as a whole, the transition program was 
developed in these halls.
    Mr. Loebsack. Right.
    Mr. Simpson. You all approve legislation that created a 
transition program to ensure that veterans had the appropriate 
skills entering the workforce to be able to attain a job or go 
to college, whichever they chose to do. So those things were 
created here. I think that establishing a set of core 
foundational rules that allows contact between employers, the 
commercial sector, and the DOD sector is the key.
    Mr. Loebsack. Right.
    Mr. Simpson. The opportunity to go in and present my 
business to those service members as they transition, so that 
they understand that you don't necessarily have to work in a 
bucket truck out in the weather and all of the elements that we 
work in, that you can also be an engineer, that you can be a 
work management technician going into our customer's database, 
pulling jobs out, and then sending those jobs to our crews that 
are in the field. There are so many other opportunities than 
just line work.
    Mr. Loebsack. We politicians are really good at 
expressing--on a bipartisan basis at expressing our concerns 
for veterans and our support for veterans, but we have got to 
find better ways, so that folks like you can interface with 
them and get to them and have that access to them.
    I am a strong supporter of community colleges. I already 
mentioned some of the colleges in Iowa. I have my own saying 
that community colleges are the principal intersection between 
workforce development and education. Any thoughts on that? I 
hate to just focus on Mr. Simpson here, but I have limited 
time.
    Mr. Simpson. Absolutely. I worked in workforce development 
with the State of North Carolina for 2 years running a veterans 
program, and in that process interacted a lot with the 
community colleges, with their folks that go out and integrate 
with business to identify training areas that are needed and 
develop a new workforce.
    So I believe that community college is a great place to 
obtain the education. I think, again, the funding issue is the 
problem, making the funding available so that continuing 
education is acceptable as well as curriculum education.
    Mr. Loebsack. Well, thank you. And thank you, Mr. Chair. I 
don't want to abuse my time. I yield back. Thanks to all of the 
participants here.
    Mr. Rush. I thank the gentleman. Mr. Griffith is recognized 
for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate that. 
This is an interesting and valuable topic, and I hope that we 
have the opportunity to work through regular order to learn 
about this bill and other workforce development programs that 
already exist at DOE and other agencies. I will have some 
questions for DOE when the time is right, and hopefully they 
will be at another hearing and I can ask them at that time.
    I also would note that if we are going to look at workforce 
development in a holistic way, we should look at populations 
that have seen a decline in industry jobs, such as many 
localities in my district, and we need to make sure that 
economic development is a part of this as well, so that we can 
train folks for local jobs.
    You may be hearing, you know, Mr. McKinley and I come from 
States where coal has been king--or for areas where coal has 
been king, so you are hearing a similar vent. I do appreciate, 
Mr. Chairman, that you did include so many areas in your 
development skills section of the bill, including energy 
efficiency.
    We actually have a group out of Christiansburg, Virginia, 
that I represent, Community Housing Partners, that I toured 
recently where they are going into homes and helping the people 
who are doing the HVAC systems and doing the energy efficiency 
at the homes, actually understand getting the certifications 
that you mentioned earlier. And Ms. Colon de----
    Ms. Colon de Mejias. de Mejias.
    Mr. Campbell [continuing]. Mejias. Thank you. And they are 
doing that there. Chemical manufacturing is listed in the bill, 
and I appreciate that because just outside of my district in 
Kingsport, Tennessee, we have Eastman, also in Martinsville, 
but they do--in Eastman they do chemical manufacturing using 
coal and natural gas as their feedstocks to make all kinds of 
different plastics that we use every day.
    Likewise, I would be remiss if I didn't mention oil and 
natural gas, and of course the bill does include coal and 
training folks for coal jobs. Mr. Olson said we have got to 
convince folks that it is cool to get into energy. Folks in my 
district, because of the money, if you can find a job--and they 
are better today than they were a couple of years ago, but they 
are paying anywhere from 75 to 90. If you get overtime, and you 
work overtime, you can make $120,000 a year.
    Wind and solar is great, but we have to recall that wind 
and solar are paying roughly 40 to 60 if you are not one of the 
top folks in the industry. So it is important to remember that.
    But, still, even at that amount of money, the folks want to 
stay in their communities. They love the mountains. They don't 
want to leave, and they will be looking for jobs. So I am going 
to ask you all how you feel this bill in particular can help, 
because we have some opportunities at surface mines for wind 
and solar, depending on the wind. Every mountain is different, 
so you can't say you would do it on every mountain, but wind 
and solar.
    And then we got some bills passed last year, and I think 
most people are supportive in a bipartisan fashion, for doing 
closed loop pump storage inside abandoned mines. They already 
have the electricity. They already have the vertical built into 
a lot of the mines, and you could use the mines to use water 
that is already--you don't have to look for critters. It is 
already water that you are bringing in from the outside, and so 
that is an opportunity.
    But how do you think this bill might help that? And I will 
open it up to whoever wants to answer. Mr. Campbell, you seem 
rather interested, but I may have gone off topic for you.
    Mr. Campbell. I am happy to start. I agree with both you 
and Congressman McKinley that rural areas have been overlooked, 
but I think we also have to have better public-private 
partnerships, and it also includes stronger policy. Some of the 
reasons in, you know, places and States that you don't see as 
much solar and wind is at the State level, not being in----
    Mr. Griffith. What in this bill do you think would help my 
region get some of those things?
    Mr. Campbell. Sure. One of the things I think directly is 
not just segmenting to solar, wind, or picking winners in 
technology, but training people to understand energy. What is 
an energy job? When you look at utility companies, they have an 
aging workforce.
    Mr. Griffith. My folks understand. They understand energy 
because we have natural gas, coal bed methane, and we have 
coal. They understand energy, and they understand energy jobs 
pay good. What we have got to do is find them a job.
    Mr. Campbell. So I think we have to work together. I think 
we need better policy. But on the other hand with the training 
component, you also have to take a long-term view. So I talked 
about like the transportation sector is coming around the 
corner, so there is real-time changes that we have to prepare 
the workforce for the future. Some of those jobs might not be 
there now, but I think it would be shortsighted not to train 
people for the jobs that are going to be there 3 years, 5 
years, 10 years down the road. So----
    Mr. Griffith. And I appreciate it. Can anybody else tell me 
how this bill in particular might help my region on the areas 
that I have touched on? Yes, ma'am.
     Ms. Colon de Mejias. I would absolutely love to help you, 
because efficiency is applicable to absolutely any type of 
energy use.
    Mr. Griffith. Everywhere. Absolutely.
    Ms. Colon de Mejias. Not just buildings, not just cars, our 
lights, every single thing, our heating, our cooling, our 
cooking, our refrigeration. Efficiency is something that draws 
down demand. It is literally the concept of using less to do 
more, right? So it applies to everything.
    And anyone can be trained in my industry. And so there are 
entry-level jobs, and there are high-level jobs. There are jobs 
at the public utilities and demand reduction in energy 
efficiency, and those people can make up to $250,000 a year. 
Many people don't know the industry exists and don't understand 
energy.
    It is great that people in the community do understand 
energy, but there are so many people that have no idea where 
electricity comes from. They don't understand their heating and 
cooling systems, and so there are real opportunities for people 
who are needing jobs to find entry-level jobs and high-level 
jobs.
    Mr. Griffith. And I will agree that energy efficiency is a 
conservative idea, because we are conserving the energy.
    I yield back, Mr. Chairman.
    Mr. Rush. I want to thank the gentleman.
    Now I will recognize Mr. Veasey for 5 minutes, and let me 
take a moment to welcome you as a new member of this 
subcommittee.
    Mr. Veasey. Thank you, Mr. Chairman. I appreciate the 
welcome, and I just want to, again, thank the chairman, the 
committee, and the witnesses today. I am really glad that we 
are here discussing this bill today. I think it is very timely.
    Last Congress, myself and Congressman Brendan Boyle of 
Pennsylvania, we founded the Blue Collar Caucus, and there are 
several members of E&C that are members of the Blue Collar 
Caucus. And one of the goals that we have is to bring attention 
and solutions to the dwindling career opportunities that we see 
in some spheres of manufacturing and the building trades, and 
see how we can increase those.
    And I clearly think that there is an opportunity to 
leverage our need to transition to a more sustainable energy 
mix and to rethinking what a blue-collar job is. We know that a 
green-collar economy is here in many aspects today, and that 
that is going to continue to grow. And we have heard from 
witnesses today that it is not the lack of jobs, that there are 
already green-collar jobs here. We see some of those in the 
Dallas/Fort Worth area.
    One of those companies, Encore, is one of our electric 
utilities in Dallas/Fort Worth, and the largest utility in 
Texas. And right now they are preparing for the challenge of 
forming a new electric fleet of vehicles. These are large EVs, 
Class 6 or 8 trucks, that are going to be used for delivery 
that would operate during the day and return to a central depot 
to charge at night.
    This overnight time capitalizes on the cheap and clean wind 
energy that we have in Texas. A lot of people think of Texas as 
an oil and gas State, and indeed we are, particularly in the 
Permian Basin, but we are also one of the leaders on wind.
    Our wind story in Texas is absolutely and unbelievably 
incredible, and we have the space, obviously, to be able to 
achieve a lot of that. But a lot of these vehicles are going to 
be charged at night, which is when the wind is more likely to 
be utilized into the grid.
    The challenge, which is really the opportunity of our time, 
is ensuring that we have a diverse and trained workforce that 
is ready to work in these jobs. And, again, I am going to 
remind everybody that a lot of these jobs are already on the 
horizon, and my question to the panel is that you have all been 
at the forefront of efforts to reduce the gap in training and 
representation of minority groups in the clean energy 
workforce.
    I want to know what kind of impact could funding and 
programs in a bill like Representatives Rush make in ensuring a 
diverse workforce in our growing green economy.
    Anybody that wants to jump in and answer could.
    Ms. Colon de Mejias. Investing in education for 
underrepresented populations or all people of America opens the 
doors to opportunity for employment. You know, it is very hard 
to get a job if you don't have the right skill set, and there 
are many areas of America that currently don't offer strong 
STEM courses in public schools, and there are areas in the 
community colleges where there are not programs for green jobs.
    And I do agree that, you know, earlier Mr. Simpson and also 
Mr. Campbell mentioned that, you know, energy, basic skills and 
STEM skills are applicable to any job, right? So by investing 
the money on the front end, we are allowing the opportunity for 
people who are not able to find employment to have access to 
those jobs. And I think that is what the key part of this bill 
is, is opening those doors for opportunities through education 
and training.
    Mr. Veasey. And I want to also remind everybody as well, 
and something that I don't know--I have to leave momentarily, 
and it may have been touched on, but we were in Seattle, 
several members of the Congressional Black Caucus were in 
Seattle a couple of years ago.
    And because of the evolution in technology that is going on 
right now, not only are we talking about many of these blue-
collar jobs transitioning to more green-collar type jobs, but 
they are going to be white-collar positions because of 
technology where people are going to see those jobs move to 
blue-collar, green-collar, gray-collar type status because of 
the technology, and that is something that we also need to 
focused on as we talk about the various challenges and bringing 
more of this technology onto the grid.
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Rush. I want to thank the gentleman for yielding back.
    Now the Chair recognizes Mr. Bucshon for 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman, and thank you to the 
panel. It has been interesting. A couple of things quickly. Mr. 
Simpson, the CDL driver's license for veterans, you probably 
don't know but I had a bill many years ago that actually put 
the current situation into law to streamline the process for 
CDLs for veterans, and so I would be interested in the pitfalls 
of what we have in place and how we can improve it. I mean, 
just briefly, because I have a number of questions. I mean, we 
want to--we can revise what we did years ago to improve it.
    Mr. Simpson. Thank you for the question. I think that, 
really, if we look at it, it is the timeline that has been 
established, the 12 months in order to get certified. If you 
miss that 12-month window, then your license, basically you 
start over from scratch as if you had never driven a truck 
before.
    Mr. Bucshon. So that is the biggest----
    Mr. Simpson. That is the biggest.
    Mr. Bucshon [continuing]. That is the biggest deal?
    Mr. Simpson. And then the MOSs, having specific MOSs 
associated, the original--the Federal Motor Carrier Safety 
Administration form doesn't indicate MOSs, but when you get to 
the State level in a lot of States they have indicated specific 
MOSs.
    So in the Marine Corps I have got one truck driver MOS, but 
I have got many more people that drive trucks than just that 
MOS.
    Mr. Bucshon. So let me--yes. Please contact my office if 
you would at some point.
    Mr. Simpson. Yes, sir.
    Mr. Bucshon. And send out that information to us, because 
we can hopefully expand that. So thank you.
    Mr. Campbell, you were talking about solar, somewhat about 
solar. Many of the panelists have. But what are we doing in 
trying to advance recycling of solar panels who are--that are 
at the end of life? Because Europeans, for example, have that 
in their process, you know, through the manufacturing of the 
panels, a plan for end of life, because if you look at where we 
are now, and we are going to continue to expand solar--and I am 
an all-of-the-above energy supporter, even though I am in coal 
country.
    Is there anything anybody on the panel knows about what we 
are doing for 20 to 30 years from now because with all of these 
solar panels as they end their life, because right now in the 
U.S. we put them in landfills. Did anybody have any--I will 
start with you. Do you have any idea about what we are looking 
at there?
    Mr. Campbell. I am not as well-versed on the recycling, but 
I can definitely circle back and find out for you.
    Mr. Bucshon. Does anybody on the panel have any input on 
that at all? I think that kind of proves my point, because I 
have been looking at this--I mean, starting to look at this, 
and I want--you know, I think if we look at the environmental 
impact of any industry, right, we need to look at the industry 
in total, and that includes the production of panels and the 
end-of-life what we do with panels. That is true with electric 
cars, too, with the batteries and all of that, and I think that 
is important.
    I support those industries, but we just need to recognize 
that we are going to landfill hundreds of millions of tons of 
solar panels, probably 25 or 30 years from now. So I support an 
all-of-the-above energy. In fact, I mean, Indiana is a big 
manufacturing State per capita, and I was a little disappointed 
to see the new bill as introduced did not include some of the 
bipartisan language we worked on regarding the fossil fuel and 
industry and nuclear energy and some manufacturing.
    Ms. Mehnert, who are we potentially leaving out with this 
limited focus on the green-collar jobs, I mean, in this bill? 
Are we leaving out anyone in what we are trying to do?
    Ms. Mehnert. Yes. I believe we need to look at oil and gas, 
and I also believe--when I went to research this, I actually 
went to this committee's Web site page, and I didn't see the 
words ``oil and gas'' even listed on the front page.
    Mr. Bucshon. I think that kind of answers----
    Ms. Mehnert. No. And I am glad you asked the question, 
because let's face it, the word ``oil'' and the word ``gas'' 
and the word ``climate,'' there are all of these terms that in 
our language, right, they create visceral responses when I look 
back and say to myself, ``We are here because of those 
things.''
    And I think everyone in this room recognizes that we are in 
an energy transition, and it is a great economic opportunity, 
but we absolutely have to make sure that we are inclusive, 
particularly when we are talking about diversity and inclusion, 
you know, of folks. We have got to have folks and forums.
    Mr. Bucshon. Understood. Ms. Colon de Mejias, is that 
right?
    Ms. Colon de Mejias. Thank you. That is perfect.
    Mr. Bucshon. Yes. I would really--the energy efficiency 
thing is really important, and why can't we convince some of 
our citizens to look at their house and do things that improve 
our energy efficiency, because we--that is struggle, right? 
People just--I mean, they just won't do it. I mean, is it 
money? What is--is it knowledge? What is it?
    Ms. Colon de Mejias. I would love to answer you, and I have 
no seconds left. But I will answer you anyway.
    Mr. Bucshon. Well, with some discretion from the chairman I 
think. Go ahead.
    Ms. Mehnert. Is that OK? So it is a great question. Energy 
efficiency is something that is very--is not talked about, 
right? It is not sexy like wind or solar. It is not as cool as 
an EV car. It just gets the job done. I call it the unsung 
workhorse of America.
    Just in my State alone, energy efficiency in the last 10 
years has removed the need to build two new power plants. The 
other thing about efficiency is it is comprehensive, and it is 
collaborative with any type of energy source. I like to talk 
about energy efficiency in a very simple way.
    I say that when we create energy policy, we are not really 
making sausage; we are making rice and beans. And the 
efficiency is really the rice with a long-acting carbohydrate 
that would sustain us as a society. And the beans are the 
proteins or the energy. It is like nuclear, fossil fuels, or 
renewables.
    And you can write energy policy with any type of beans, 
right? But if you create a dish and you have the parts that you 
need, it is going to sustain you longer than if you don't think 
about how you are creating the dish.
    Mr. Bucshon. Thank you. My time has expired. I would like 
you to expand more, but it is a very important subject. Thank 
you very much for your answer.
    Ms. Colon de Mejias. Thank you.
    Mr. Rush. The Chair now recognizes Mr. Kennedy for 5 
minutes.
    Mr. Kennedy. Thank you, Mr. Chairman. I want to thank the 
witnesses for appearing today and to the committee for holding 
this important hearing. I want to thank you also as well for 
your perspectives and for your leading efforts to develop, 
promote, and employ a diverse labor force and a growing green 
economy.
    I am particularly interested in the development of offshore 
wind resources. We know offshore wind holds an immense 
opportunity for abundant renewable energy, and that offshore 
projects are in the development pipeline. Some report that ISL 
New England has around 10 gigawatts of offshore wind project 
development in the interconnection queue, and the lease results 
from December show a significant interest in potential, 
particularly off the south coast of Massachusetts, an area that 
I represent.
    Locally, there is already active economic mobilization from 
businesses to education institutions to civic organizations, to 
ensure that our region is poised to capitalize on that 
potential.
    Folks, it is hard to overestimate how promising this is for 
cities like Fall River and New Bedford, Massachusetts, and for 
communities like them around the country that have too often 
been afterthoughts in a modern economy and deserve to have a 
central seat at the table as these new industries emerge.
    But domestic offshore U.S. wind development is in its 
infancy, and as a result we don't have the robust offshore wind 
workforce that is needed. I know this is a challenge that we 
have to tackle locally, and we have tried to tackle locally, 
and I have a few questions on that piece specifically.
    So, first, this bills seeks to address the critical need 
for a diverse labor force, and I want to focus on that for a 
second. Ms. Truong, is that right? Close?
    Ms. Truong. Yes.
    Mr. Kennedy. Thank you. Forgive me. How do we ensure that 
our workforce training and development efforts in this emerging 
sector are inclusive, and intentionally target populations that 
most need and most stand to gain from access to these new good-
paying jobs?
    Ms. Truong. Well, that is a very good question. And, first, 
I think what we want to start with is, how far away are we from 
developing the offshore wind? We want to time the development 
and the training of the workforce with the demand of the 
employers that is going to be upcoming, right?
    And so once we understand that, how do we make sure, then, 
we are reaching out to where the diverse workforce will be? 
Whether it is in schools, whether it is in middle schools, or 
high schools, how to begin to provide the on-the-job training, 
the internships, the apprenticeships necessary as the 
employers, the offshore wind projects, are being developed at 
the same time.
    We want to make sure that we actually match the demand with 
the supply itself. We don't want to train young people, 
especially in diverse communities, for jobs that won't exist, 
especially if they are going to be sacrificing other 
opportunities, the opportunity costs that will entail. At the 
same time, we don't want them to miss the opportunities that 
will be presented in itself with the offshore wind projects. So 
I think matching the supply and the demand of the employers and 
the employees would be really important there.
    Mr. Kennedy. And building off of that a moment, ma'am, 
targeting amongst the groups that you indicated, minorities, 
women, lower income communities, and other populations 
currently underrepresented in the energy sector, how do we 
assure that they have access to the training and employment in 
that offshore--as we try to bring offshore wind to market?
    Ms. Truong. Education and outreach, making sure that we are 
going to where the people are, making sure that we are engaging 
the community-based organizations, the workforce investment 
boards, and the local communities, making sure that we are 
connecting the investment in the pipelines that the potential 
employees will be to the jobs, to the job market, and making 
sure----
    Mr. Kennedy. When you say ``we,'' do you mean through the 
design of that legislation and the implementation thereof?
    Ms. Truong. Absolutely.
    Mr. Kennedy. OK.
    Ms. Truong. Yes.
    Mr. Kennedy. And forgive me, Ms. Pramaggiore?
    Ms. Pramaggiore. Yes.
    Mr. Kennedy. Close? Forgive me. From the utility and 
resource planning perspective--and, Mr. Campbell, from the 
project financier and development perspective--how do we, 
simply put, make these jobs a reality?
    Ms. Pramaggiore. Thank you. So we are actually thinking 
about that right now. We have a utility in New Jersey, and 
there is some discussion in that State of offshore wind, and 
that is not our job to build the turbines. We are a utility 
transmission and distribution.
    But we are thinking through what it takes to take 
transmission out to those assets, and what that looks like from 
an economic standpoint, what that looks like from a job skill 
set standpoint.
    So I think the industry is thinking about this. I think 
those projects are becoming real. We have the skill sets in the 
utility or, you know, can build them. They are for us the, you 
know, the traditional transmission technician skill set and 
transmission engineering skill set.
    We just, you know, I think to the point that Ms. Truong was 
making, you know, to continue that pipeline, make these 
projects and great opportunities accessible, create awareness 
around them, and just, you know, ensure that we are supporting 
that pipeline.
    Mr. Kennedy. Thank you. Mr. Campbell, briefly?
    Mr. Campbell. Yes. Currently, we don't have the 
capabilities in wind. We have the access to capital. As, you 
know, that market matures a little bit, I think the 
partnerships and/or acquisition would be an area that we could 
look at, but right now we are not currently operating in wind.
    Mr. Kennedy. And what can we do to help? In four seconds.
    Mr. Campbell. Products. And the partnerships will come. And 
I know we talked a lot about job creation, but also small 
businesses are the backbone of our country. And I think part 
of, you know, once you train and learn energy, an opportunity 
like what I did, to be able to create your own companies as 
well, too.
    Mr. Kennedy. Thank you, sir. I yield back.
    Mr. Rush. The Chair now recognizes Mr. Johnson for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And I want to thank 
our panel for being with us today. You know, the world has 
changed, I think, because I spent 27 years in the Air Force, 
joined in '73 and retired in '99. And I can remember the day 
when employers were clamoring to get military folks to come and 
work for them.
    It was a big deal at every base that I was stationed at 
over that nearly 27 years. Employers would offer you a part-
time job, whether it was in technology or food service or 
manufacturing, you name it. How we got into this situation 
where we are no longer able to tap into that huge talent pool 
with veterans, with military folks that are exiting their 
active service, is beyond me, and I think Congress should be 
doing everything that we can do to make it easier for those 
veterans to utilize resources and to get into the job market.
    I really wish that we were hearing from the Department of 
Energy also today, because I know that Secretary Perry has 
really worked hard to expand veterans programs and increase the 
communication and collaboration between the VA and the 
Department of Energy, and that is an issue that I have worked 
on myself with him.
    So, Mr. Simpson, as you alluded to in your written 
testimony, there are already many Federal programs for 
veterans. DOE also works with partners on training and 
certification programs to assist veterans and active duty 
service members on their transition into civilian jobs. Do you 
support this idea of a clearinghouse to consolidate these 
resources and make them easier to use?
    Mr. Simpson. I think, sir, if you look at it for us, we 
support anything that develops a better workforce for industry. 
I think if you look at the existing platforms that are already 
available, what has happened to the resources that are there, 
and then after doing that look at how the industry has 
responded, how people have responded about getting into the 
industry, then you look at those things. That would make sense.
    Mr. Johnson. OK. All right. Despite the great work already 
occurring, both in government and in the private sector, do you 
believe specific barriers remain to companies successfully 
tapping the unique skills and abilities of our veterans within 
the energy industry?
    Let's see, yes, such as issues involving transitioning from 
the military culture to private sector culture, issues with 
private sector certification requirements or the need to 
supplement veteran skills with additional training. In other 
words, what gaps remain or could be improved upon to make this 
transition from the military to the private sector most 
successful for veterans in your industry?
    Mr. Simpson. So I am going to answer that in a couple of 
different directions. I am going to start with something I have 
been meaning to say the majority of the day. Education has been 
something that we have talked about at this table pretty 
consistently, and I think that as we educate our educators on 
interacting with young students teaching them--right now 
Department of Education grades our school systems and our 
educators on how many kids we send to college.
    As long as we are evaluating the performance of a counselor 
on how many kids he sends to college and how many kids get into 
top tier schools, we are taking people away from the other 
workforce that may have entered that workforce. So educating 
people about all of the jobs that are available, and all of the 
careers that are available, that would triple into the military 
side.
    But on the military side, it is access. Give us more 
access. Give us the opportunity to be on the base, in the 
community of the veterans, and educate them on what our careers 
are.
    Mr. Johnson. I think we--and I was going to get into it, 
but I see I am not going to have time, I think it is definitely 
a problem that we have convinced many young people that their 
only pathway to success is a 4-year university. Many of them 
don't want to do that, don't need that, and we need workers in 
all of the different areas.
    I am limited on time. So, Mr. Simpson, one final question 
for you. Why do think jobs in your industry are attractive to 
veterans, and do you think it is shortsighted to limit Federal 
programs to only green-collar jobs?
    Mr. Simpson. I think that anytime you limit funding to 
specific industries or jobs you limit opportunity. So I do 
think that we look at all of the opportunities that are 
available. But as far as the industry being attractive to 
veterans, a lot of us joined the military because we didn't 
want four walls and fluorescent lights.
    It is great to be able to work outside and in the elements 
and with a small team, and we continue that when we leave the 
military by entering into the energy workforce.
    Mr. Johnson. I was raised on a tobacco farm. I love the 
four walls and the bright lights. So I get that, but thank you 
very much.
    Mr. Chairman, I yield back.
    Mr. Rush. I thank the gentleman. The Chair now recognizes 
Ms. Barragan. And before she begins, I want to welcome you as a 
new member to this subcommittee.
    Ms. Barragan. Thank you, Mr. Chairman.
    Mr. Rush. Thank you.
    Ms. Barragan. Thank you so much, Mr. Chairman, for having 
this discussion today and everybody who is here. I have heard a 
lot just sitting here, and I represent a district in southern 
California that includes areas like Compton and Watts, where 
not everybody is going to college.
    So bills like this are so critically necessary and 
important because there is a lot of folks in parts of the 
country, including my district, who want to have opportunities 
for jobs where they may not go to college. And so, Mr. 
Chairman, I want to thank you for having this conversation, and 
I think this is a bill that is desperately needed.
    And, you know, the focus of the bill is obviously to move 
toward clean energy, and that is why the bill language is the 
way it is. It is because we have a climate change crisis. It is 
because communities of color and low-income communities are 
suffering health impacts. There is really a public health 
crisis.
    And so that is why the language isn't there talking about 
the oil industry, and that doesn't mean we don't include them 
in the conversation. As a matter of fact, when I meet with them 
oftentimes my conversation with them is, what are you doing to 
transition? How can we help you transition?
    And that is the great part about this bill. One of my 
colleagues from Virginia asked, what is in the bill for people 
where he is, and Section 202 of the bill is very clear. It 
prioritizes who is going to benefit from this. So the question 
is, do you have women in your district? If it does, if you do, 
this benefits you.
    If you have persons who are transitioning from fossil fuel 
energy sector jobs, are they in your district? Well, then they 
benefit you. Do you have veterans in your district? Because if 
you do, this bill is going to benefit you and your district. I 
don't see anything in the bill that restricts money from going 
to rural areas. I haven't seen anything.
    Ms. Colon de Mejias, have you seen anything in a bill that 
restricts money to rural areas?
    Ms. Colon de Mejias. Absolutely not. I think that the bill 
is very competently written to ensure that it supports people 
in urban and suburban areas, and I agree that it would 
specifically support women and minorities and career changers 
and veterans. That is the way I read the bill.
    Ms. Barragan. Thank you. Now, Ms. Colon de Mejias, can you 
provide an example from your experience where you have had 
difficulty hiring staff for an available job and how this 
legislation would help small businesses like yours?
    Ms. Colon de Mejias. I currently have 7 positions that are 
open. Oftentimes, I hire people from those populations, and I 
train them, and then they actually end up leaving about 2 years 
later to go work for the public utilities, because they become 
such highly skilled workers that they are sought after by other 
companies and other industries, including solar, electric 
vehicles.
    Many of the skills are transferrable. So once someone is 
trained, they would have the opportunity to work in other areas 
as well, including public utilities.
     Ms. Barragan. Right. And how--rather, why should small 
businesses get more robust incentives than maybe larger 
businesses? And do you have an example that supports the 
distinction?
    Ms. Colon de Mejias. Yes. Specifically, I hired a veteran 2 
years ago who I absolutely loved, but he didn't come with the 
right skill set because the programs that are available for 
vets do not allow them to participate in the noncredit 
education or continuing education.
    So I had to invest in those courses to allow him to get the 
certifications he needed, and then after he got the 
certifications he was rightfully hired by a much larger entity, 
the Department of Energy and Environmental Protections, and he 
works there now. But I invested a lot of money in his training, 
and I also paid him for the job for the 2 years, and then I had 
to start from the beginning to retrain.
    Ms. Barragan. Thank you. Ms. Truong, if I can ask you a 
couple of questions. What are some of the key barriers to equal 
minority representation in the energy workforce? And a follow 
up, what types of obstacles have you come across, and how can 
smart Federal policy help address those challenges?
    Ms. Truong. Training and access. Oftentimes minority and 
communities in low-income communities don't get access to these 
jobs. A lot of times the energy companies and utilities 
interview and hire people who they may know in their 
communities, and they may not have outreach to the communities 
that have not been traditionally seen as candidates in this 
industry.
    And so outreach and education, both from the employer's 
side to the communities that otherwise are not included in the 
conversation, but also investing in the communities that 
hasn't--that has seen a traditional disinvestment in education 
and training programs and making sure that they are connected 
now to the new industry that is growing and booming.
    Ms. Barragan. Great. Well, thank you. And I want to thank 
you for making the connection between poverty and pollution 
earlier in your remarks.
    With that, I will yield back.
    Ms. Truong. Thank you.
    Mr. Rush. I want to thank the gentlelady, and the Chair now 
recognizes Mr. Walberg for 5 minutes.
    Mr. Walberg. I thank the chairman, and thank you for--the 
panel for being here today. I am pleased that the committee is 
holding a hearing on workforce development for the energy 
industry. As a senior member of the Education and Labor 
Committee, I have been passionate about and working on these 
issues for a long time.
    The Education and Labor Committee actually has primary 
jurisdiction. So I will be following this issue closely in the 
days ahead.
    Also, my district is the number 1 district. It is the 
energy district of the State of Michigan, with over 35 percent 
of all of the energy produced in Michigan produced in the 7th 
district. It is an all-of-the-above district, everything from 
wind to solar to natural gas, coal, and Fermi, the only plant 
recently to receive a license for a third facility. So we are 
appreciative of this issue.
    Ms. Pramaggiore, I was taken with the ice box challenge, 
the refrigerator electrification, and racing those 
refrigerators made me think, with what is going on in my 
district, with self-driving vehicles, that maybe we ought to 
have a self-driving refrigerator, so when I am watching 
Michigan beat Ohio State, hopefully in the future, I don't have 
to leave and have the refrigerator brought to my--let's forget 
that.
    Ms. Pramaggiore. I think you will have some takers for that 
science project.
    Mr. Walberg. Good deal. Let's move that on, with the young 
ladies or with the young men as well, putting that together.
    When I was back visiting just this last week our ISD in 
Jackson, Michigan, and their career center, I saw firsthand 
what our communities are doing to promote hands-on learning 
opportunities and create high-schooled, high-wage jobs. I wish 
this hearing had been held before that. We could have talked 
about this as well in the energy industry.
    At Exelon, are you partnering with your local communities 
similar to the career center to collaborate on the workforce 
development training this bill discusses?
    Ms. Pramaggiore. Yes. Thank you, sir. Yes, we are. We have 
a number of different programs. We have programs that are 
designed around workforce development and training where we 
partner with community colleges and other community groups to 
develop these training programs. We also have educational 
programs, dollars that go to different entities to create 
educational programs through elementary schools, middle 
schools, high schools.
    So we overall in our company spend about $10 million a year 
on education alone, and then there is a separate funding for 
training programs themselves.
    Mr. Walberg. OK. Thank you. With that in mind, from my 
understanding, it appears that a lot of what this bill proposes 
already exists either by private sector companies like the one 
Ms. Mehnert leads, for instance, or through existing DOE 
programs.
    Do you see a need to duplicate these efforts with Federal 
funding? And then, second, if so, what should be the role of 
the Federal Government?
    Ms. Pramaggiore. So what I described was efforts that my 
company makes, and many large companies and particularly 
utilities have experience in. Our industry is changing pretty 
dramatically, and so what we are seeing is that more and more 
aspects of the industry are being served by smaller businesses, 
different kinds of businesses. Mr. Campbell's is one. Ms. Colon 
de Mejias has another business that works in our industry.
    Traditionally, this was done by the utility industry, but 
no longer. These are businesses that need support. These are 
businesses that don't have the capacity to develop training 
programs like we do, and yet I think they have a tremendous 
impact on communities, particularly smaller communities. A 
small business in a particular neighborhood or community can 
have an enormous impact, economic impact, on that community if 
you can get them up and running.
    And so I think that it is--as our industry becomes more 
fragmented, segmented, and there is more actors and players of 
different sizes and capacity and capabilities, that this is 
very important to ensure that those businesses can develop and 
find workforce and add value.
    Mr. Walberg. OK. Thank you. Let me just jump to nuclear 
power. The Fermi plant in Monroe provides important baseload 
generation with zero carbon emissions. Is Exelon already 
partnering with any local career centers or private 
organizations to ensure skilled workers are prepared for the 
innovations in the nuclear industry? And is your company 
leading that way?
    Ms. Pramaggiore. Yes, we do. We, as you know, have a number 
of nuclear plants. We think maintaining nuclear skill sets is 
absolutely essential to the United States economy, to the 
United States leadership in nuclear power in general. We fund 
scholarships for nuclear engineering. We have training programs 
for nuclear craft skill sets as well.
    Mr. Walberg. Thank you, Mr. Chairman. I yield back.
    Mr. Rush. I want to thank the gentleman, and now I am going 
to recognize Mr. McEachin for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman, and let me start off 
by thanking you for----
    Mr. Rush. Let me take a moment just to welcome you to this 
subcommittee. I want to thank you, and we look forward to 
working with you. And you are now recognized for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman. And I am 
appreciative of being on this committee, as well as this 
subcommittee. And let me start by thanking you for your 
leadership in introducing the legislation that we are 
discussing today.
    In my judgment, nothing is more important than speeding our 
transition to a sustainable green-collar economy. As we make 
that change, we can and must work to ensure that the benefits 
are widely and fairly shared. We need to ensure that the most 
direct benefits of our transition--cleaner air, cleaner water, 
better health--accrue to all Americans, but we also need to 
ensure that the opportunities in the form of new jobs, 
community development, and economic growth are broadly shared.
    And I will just also say to my good friend of 30 years from 
southwest Virginia that I feel you. You and I have worked 
together for many, many years, and I look forward to that 
continued relationship and partnership and would suggest to you 
that whether it is Petersburg or southwest Virginia, we are all 
in the same boat when it comes to trying to get investments in 
this new collar, this new green-collar economy, into our 
districts.
    Commendably, this bill keeps both of those goals in sight, 
and I look forward to working with everyone here to ensure that 
we make the most of this strong foundation and ultimately pass 
a bill that reflects both the scale of the needs we face and 
the urgency of the moral imperative to help our most vulnerable 
friends and neighbors.
    Mr. Chairman, along with the work that you have been doing, 
I discovered an article talking about investment in low-income 
neighborhoods. Of course, your bill addresses that. It also 
seeks to prevent gentrification, which is a thing that I think 
we need to keep our eye on, because as we improve these low-
income neighborhoods, we want the people who have been there 
all their lives to be able to stay there and can afford to stay 
there, and are just being handled with a certain caution in 
this country through some green jobs.
    So I would submit this article, if there is no objection, 
as part of the record.
    [The information appears at the conclusion of the hearing.]
    Mr. McEachin. And as far as my questions are concerned, Mr. 
Campbell, as you have already stated, the transportation sector 
is now an even bigger source of greenhouse gas pollution than 
the energy sector, and auto emissions powerfully affect air 
quality and public health. Can you speak to how we continue to 
green our transportation system, for instance, by helping 
facilitate a greater use of electric vehicles? And how does 
this bill help or could it help advance that work?
    Mr. Campbell. Great question. So I will start, first--
again, I go back to collaboration. So utilities around the 
country are now seeing the benefits of building out the 
electric vehicle infrastructure that our country desperately 
needs.
    I was on a panel recently that Pepco hosted with some of 
the ride-sharing companies like Uber and Lyft, and even FedEx. 
They all want to swap their vehicles to electric vehicles, but 
they can't do so until the infrastructure is put in place. So 
we need some more policy that will allow for that 
infrastructure to put it in place.
    Now, what do the jobs look like, and how does this bill 
directly correlate to that? You are going to need electricians 
to install the EV charging stations. Once that infrastructure 
is put in place, who is going to service these new cars that 
are different from the past?
    So part of this training that we haven't really talked 
about today is also providing grants, because it is hard for 
people to leave for 5 or 6 weeks, however long a training 
program is, with no income. And having some level of a grant or 
subsidy to be able to allow you to go to training is critical, 
and I commend you all in the way this bill was drafted to be 
able to provide that support.
    But I do strongly believe that the greening or the 
electrification of our transportation sector is one of the 
biggest opportunities that we are going to see, and it is a lot 
of work that is being done real time. GM, for example, has 20 
new electric vehicles they are rolling out over the next 5 
years.
    Mr. McEachin. Thank you. Ms. Truong, this bill is designed 
to help vulnerable communities, in large part by helping 
individual members of those communities. But we need to guard 
against the danger that in helping certain individuals we do 
not simply help them out of their communities, such that their 
neighbors' lives get better even as their friends and neighbors 
get left behind.
    If we do not guard against that possibility, we will be 
simply repeating past injustices. We can't do that. So as an 
example question, how do we ensure that creating clean energy 
jobs in a given neighborhood does not just lead to that 
neighborhood being gentrified? What can we do to maximize the 
extent to which the bill really truly has its intended effect?
    Ms. Truong. I think we can incentivize and prioritize smart 
development that has transit-oriented development, clean green 
jobs, that pays good wages. So that even as people are getting 
into those jobs, they are able to afford the costs of living in 
their community.
    And we can prioritize the investments in helping to create 
sustainable communities that invest in things like public 
transit, which is actually good for the environment, actually 
reduce the cost of living, and at the same time improve the 
ability for people to pay for the cost of living in their 
community. So reducing the cost of living, improving the 
quality of life at the same time.
    I will say that we do run major campaigns across the 
country on electric vehicles in the transition to 
transportation. I am happy to answer questions on that, too.
    Mr. McEachin. Thank you very much. And thank you, Mr. 
Chairman. I yield back.
    Mr. Rush. I thank the gentleman. I now recognize Mr. Hudson 
for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman. And as I said in my 
opening statement, I have been proud to work with you on this 
issue for many years.
    Mr. Rush. So have I, Mr. Hudson, and I look forward to 
working with you as closely in the future.
    Mr. Hudson. Great. I appreciate that. And, you know, I am 
committed, just as you are, to making sure that we are 
preparing our workforce, particularly women, veterans, other 
minority groups, for the future jobs that are going to be out 
there, making sure that our education systems are in line, so 
that our folks are in place to take advantage of this new 
economy, but also to help bring this economy about, because we 
have those skills.
    And I do want to respond to my dear friend from California 
when she said that the scope of this ought to be narrowly 
focused on green jobs only, because of the crisis with climate, 
and so forth and so on. And I certainly look forward to these 
new technologies coming forth, but I would just hate for us to 
miss out, the people in the workforce, the folks coming into 
the workforce looking for jobs, and we have got industries with 
jobs looking for people.
    And I would just hate for us to narrow the scope on this 
legislation so much that we miss those opportunities in the 
meantime. So I look forward to working with you on that, Mr. 
Chairman.
    And I will start my first question to Mr. Simpson, who I 
would like to begin again by saying thank you again for your 25 
years of service to this country is because of men and women 
like you willing to serve that we get to enjoy the freedoms we 
have. So I thank you for that.
    And I am proud of the work Pike is doing to hire veterans, 
and I want to commend you for that. It is a great service to 
our Nation to take care of our veterans because of their 
sacrifice. As many members of this committee know, I represent 
Fort Bragg, the epicenter of the universe, one of the largest 
military installations in the world. The Marine is laughing 
because we also have a large Marine base in North Carolina. But 
I look forward to any opportunity to support our men and women 
in uniform, both during and after their service.
    With that in mind, Mr. Simpson, in your testimony you 
stated that we are seeing growth of about 14 percent in the 
industry, resulting in a need for several thousand new 
employees annually for the foreseeable future, just to keep up 
with that demand. With the growth you all are facing--and 
Pike's hire veterans initiatives--I think you have touched on 
this a little bit before, but could you describe some of the 
barriers you are facing on the front lines to find potential 
veterans to hire and train them for the workforce?
    Mr. Simpson. Yes, sir. I can. So as I mentioned several 
times earlier, the access issue is huge, just being able to get 
to the veterans and make sure that they understand what the 
career opportunities are. But when you look at this as a 
workforce development issue across the board, gaining access 
and being able to get into the institutions, I have got 
veterans that tell me ``I would really like to do this, but I 
have got to support my family.''
    So there is that gap that several people have talked about 
today that is big. But for us, if we can get into the 
installation, access the service members earlier, establish the 
skill bridge programs on the base where they can train through 
that program while they are still active duty service members 
and being paid by the military with benefits, then we can 
transition them directly into the industry.
    Right now, the issue is there aren't enough training 
programs to do that effectively, and that we don't have access 
to the veterans to get them into the programs.
    Mr. Hudson. Got you. Now, you mentioned in your testimony 
the Center for Energy Workforce Development. Could you please 
elaborate on what that center does, and is that what you are 
talking about now as part of this transition and sort of talk 
about what Pike's role is with the center?
    Mr. Simpson. So Pike is a member of the Center for Energy 
Workforce Development. It is a national program, and I think 
when you look at it they address several issues. They have got 
a program called Get Into Energy, which gets into the 
elementary schools and the lower grade levels to start teaching 
people about industry jobs at the earliest stages of their 
education.
    Later on when folks leave the military, we have the Troops 
to Energy jobs that are available. So that program, again, 
addresses how to attain those jobs at that point in time. So 
there are a couple of places where the Center for Energy 
Workforce Development has really done a really good job of 
developing pathways and educational programs that can be 
delivered at any school to teach kids how to get into the 
industry and get specific certifications to attain industry 
jobs immediately upon graduation.
    Mr. Hudson. Got you. Now, are there other specific programs 
that you have undertaken to access veterans?
    Mr. Simpson. Of course, with ours, the apprenticeship 
program is huge, being able to tap into a veteran and give them 
a housing allowance while they are learning the skills to 
attain our jobs is very beneficial, so we use that.
    Mr. Hudson. I guess--well, I am about out of time, so I 
will just, again, say thank all of the panelists for being here 
this. This has been a very worthwhile discussion. I appreciate 
your help.
    Mr. Chairman, with that, I will yield back.
    Mr. Rush. I want to thank the gentleman. The Chair now 
recognizes Mr. O'Halleran.
    Mr. O'Halleran. I would like to thank----
    Mr. Rush. Mr. O'Halleran, I want to welcome you also to the 
committee, and look forward to working with you.
    Mr. O'Halleran. Same here, Mr. Chairman. I would like to 
thank you and Ranking Member Upton and other witnesses before 
us today to join us in this important conversation regarding 
our Nation's energy resources, and to discuss the Blue Collar/
Green Collar Jobs Development Act, which is an important first 
step toward this critical issue for my district.
    About my district, talking about jobs is important. I have 
the largest Native American population in the United States in 
my district. The Navajo Nation has a 50-plus percentage 
unemployment rate, Hopi are about 80 percent, the White 
Mountain Apache 60-plus percent. One of their towns is at 95 
percent unemployment, San Carlos 60-plus percent. This has a 
profound impact on rural America also, since our unemployment 
rate is higher than urban areas.
    It has an impact on our schools, our fire districts, 
police, anybody that is concerned with our tax base. We are 
losing--I have 4 power plants in my district. We are likely to 
lose one here in the next few months.
    And so it also is a situation where it affects people that 
are already in such hardship across Indian land and rural 
America in general.
    I hope this hearing is the first of many actions we as a 
committee take, and a key priority of mine, supporting economic 
opportunity across rural America and Indian country.
    It is important to note, Mr. Simpson, that with the 
veterans issue, as a per capita--I base it on per capita--
Native Americans have the highest per capita of service to our 
country than any other population.
    Rural America is at a crossroads as market forces in the 
energy sector and beyond have drastically changed, and economic 
realities in communities like those I represent. We must ensure 
energy workers of all trades are not left behind as the energy 
marketplace continues to evolve.
    I cannot understate the unique and dire circumstances and 
the intimate closures of coal-fired plants like the potential 
for the Navajo generation station. It is one of the largest 
coal generation stations in America. What it presents those 
communities--the potential loss of hundreds of jobs, the best-
paying jobs, in my district by far, along with loss of 
operating revenue for those rural and tribal communities has 
had devastating implications.
    This decision today has real implications for real people 
and real families, and I want to make sure we know that it just 
isn't theoretical. If we fail to help energy workers, such as 
those in my district, transition to new opportunities and pay 
competitive salaries, if we fail to boost economic 
diversification efforts, then we have failed at our jobs.
    Whatever the future holds, and for the energy realities of 
today, we must act now to make sure workers in rural America 
and across Indian country have every tool to compete and thrive 
in the new economy.
    Why is that so important to rural America? I think we, as a 
country, take it for advantage. I think urban America has to 
start to understand what rural America is about, and it is 
about water, where the electricity comes from, natural 
resources. This is the foundation of our urban centers.
    They wouldn't survive without what comes from rural 
America, and rural America can't survive without having the 
appropriate education, the appropriate jobs available, the 
appropriate quality of life to keep people there.
    The transmission lines alone--if we are talking about 
energy, it is not going to come from the core of our urban 
centers right now. It is going to come from those areas. And so 
we have to address that accordingly.
    I will move along here quickly. Mr. Simpson, I see in your 
testimony that Pike Corporation is very engaged in employing 
and encouraging veterans to contribute to the energy workforce. 
I thank you. How do you view this legislation's potential to 
further increase opportunities and flexibility when it comes to 
energy workforce training for veterans?
    Mr. Simpson. As I mentioned earlier, sir, I think any 
program that gives us the opportunity to educate a workforce 
and develop a workforce is beneficial, but I do think that we 
have to look at this against all of the other programs that 
already exist. The Workforce Innovation Opportunity Act 
provides a lot of funding for education. It is simply how that 
funding is applied in reducing the limitations on that funding 
to apply to energy programs.
    I feel like there may be opportunities already in existence 
to fund some of this, and we may be duplicating an effort, but 
I love hiring folks into the energy industry. So if you will 
train them, we will hire them.
    Mr. O'Halleran. I think there is a lot more work to do, and 
I look forward to working with my colleagues on that effort, 
which I believe builds on the important work we have discussed 
today.
    Again, I thank the witnesses. I hope we continue this 
important conversation. Rural America is counting on it.
    I yield back. Thank you, Mr. Chairman.
    Mr. Rush. I want to thank the gentleman. The Chair now 
recognizes Mr. Flores for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman. I would like to echo 
the concerns of my colleagues on this side of the dais that we 
are not following regular order with today's hearing. We were 
able to work together on a great bill in the last two 
Congresses, and I hope that your side of the aisle will 
continue working with us in a bipartisan manner to address this 
critical issue for the American people.
    At this time, Mr. Chairman, I would like to ask for 
unanimous consent to insert into the record a statement from 
the Nuclear Power Institute, which discusses nuclear power 
education jobs and careers.
    Mr. Rush. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Flores. Thank you, Mr. Chairman. The Nuclear Power 
Institute is located in my district and is a joint center of 
the Texas A&M experiment station and the Texas A&M University. 
This institute works on important workforce issues within the 
world's leading emissions-free baseload energy technology 
industry, that being nuclear power.
    As I mentioned in our last Environment Subcommittee 
hearing, if we are serious about the threats of climate change, 
we need to accelerate the deployment of more emissions-free 
next-generation nuclear power. In the near term, we should also 
continue to highlight the climate benefits of lower emissions 
fuels like natural gas, which have contributed immeasurably to 
our country's global leadership in emissions reduction.
    Ms. Mehnert, I want to thank you for your testimony and for 
everything you do for women and increase diversity in the oil 
and gas industry. And as a fellow Texan, and a former member of 
the oil and gas industry, I am pleased for my colleagues to 
hear your perceptions about our industry and to dispel some of 
the myths about our industry, and also to talk about the great 
opportunities it creates for job opportunities and career 
development.
    Over the last two Congresses, I have worked on a bipartisan 
basis on legislation to streamline the permitting process to 
modernize our infrastructure, including pipelines. This is good 
for jobs and paychecks and careers. And if you think about what 
we are talking today, there is two elements to this. One, we 
have to educate the workforce; but, two, you have got to make 
sure there is a job for that workforce to go to after you have 
educated them.
    And so, Ms. Mehnert, I am going to ask you this question on 
the second part, and that is, having the jobs available, do you 
agree that it is important for Congress to remove out-of-date 
permitting barriers so that we can amplify workforce growth, 
development initiatives, and employment opportunities?
    Ms. Mehnert. I do. And I think as my colleague to the left 
here, Mr. Simpson, has talked about, it sounds like it is very 
difficult and complicated, the processes and procedures we have 
put in place for veterans. So I would echo support for 
elimination of complicating the process. If we are going to 
spend a lot of effort to engage and get people engaged, we 
absolutely need to make it easier for them to take those jobs 
and for us to accelerate that process. So, yes.
    Mr. Flores. I totally agree with you on both points. That 
is great. It seems that we could and should do both, so we are 
creating the right environment where companies can have the 
confidence to invest in new jobs, in new projects, and invest 
in their workforce.
    You are not just oil and gas. You are talking about 
expanding to renewables and all forms of energy; is that 
correct?
    Ms. Mehnert. Absolutely. Experience Energy is about 
experiencing our energy, truly in the fullest form, and it 
sounds like I need to connect with my colleague to the left 
here about efficiency because it is not an area that I was 
aware of. So----
    Mr. Flores. Yes. Efficiency is a critical part of an 
emissions control strategy. How would you compare the business 
climate for energy jobs in Texas along the Gulf Coast compared 
to the rest of the country?
    Ms. Mehnert. It is pretty significant. Right now, we are in 
a--in Texas alone, I speak often to industry about a middle 
skills gap. We have initiatives already in place in Houston and 
other areas of Texas where we are trying to find folks to put 
into jobs. We do have a number of jobs that go unbilled.
    Mr. Flores. OK. And what would you attribute the difference 
in opportunity to between Texas and Gulf Coast and the rest of 
the country? I will let you think about that.
    Ms. Mehnert. I am going to have to think about that.
    Mr. Flores. OK. I am going to go to Ms. Pramaggiore, right? 
Would you also agree on the importance of an efficient 
permitting system for energy infrastructure projects, whether 
it is for pipelines for natural gas or for transmission lines 
so that you can get the electrons from where they are generated 
either by nuclear or other emissions-free sources like wind and 
solar to the consumer?
    Ms. Pramaggiore. Yes. Thank you, sir. Absolutely. I think 
that we--you know, we have an interest in moving forward more 
quickly on infrastructure buildout. We are very interested in 
enhancing the infrastructure, modernizing the infrastructure, 
and extending the infrastructure where need be. And, you know, 
there are certainly--we could certainly be moving faster on 
that.
    Mr. Flores. Thank you. I think infrastructure is really a 
4-letter word. That's jobs.
    Thank you. I will yield back.
    Mr. Rush. I want to thank the gentleman. And now, lastly, 
we want to recognize Ms. Blunt Rochester. And I just want to 
make sure that you know that we really are looking forward to 
working with you, and we welcome you to the subcommittee.
    Ms. Blunt Rochester. Thank you so much. Thank you, Mr. 
Chairman, and thank you to this incredible panel. Mr. Chairman, 
I am pleased to be here at my first Energy Subcommittee 
meeting, and really to be discussing a real bold and ambitious 
plan to invest in America's energy infrastructure, with a 
specific focus on ensuring a well-educated and trained diverse 
workforce.
    As the former Secretary of Labor in the State of Delaware, 
and also the founder of the Future Work Caucus here in the 
House, there is no more important issue at this time for me. 
And I wanted to also highlight Ms. Pramaggiore--I want to say 
the whole--Pramaggiore and the work of Exelon and Delmarva in 
Delaware, because you are working with the Boys and Girls Club, 
our community colleges, and our HBCU, Delaware State 
University.
    And my question is really going to be--the whole panel can 
pick one. In Delaware, we have a saying, ``It is good being 
first,'' because we are the first State. Today it is tough 
being last, because I am the last. So I am going to just give 
you the 3 questions I have, and if each of you can take a 
minute or a second to give an answer. And if not, we can follow 
up afterwards.
    So the 3 questions are: How can we best support small 
businesses, particularly MBEs and DBEs, as we are looking at 
the green-collar energy, you know, future? That is number 1.
    The second is, we talked a lot about different groups that 
are impacted, but not a conversation about individuals coming 
out of prison. And I am really curious about both the 
challenges and opportunities in the energy sector for 
individuals coming out of prison.
    And then the last question--and I am going to start with 
Mr. Campbell--you can pick any of those, but for those of you 
who have gone into this, these fields, what great programs did 
you personally participate in that might become models that we 
need to, you know, expand on?
    So it is really small business, prison, and your personal 
journey, things that you would recommend. And will start with 
Mr. Campbell.
    Mr. Campbell. I will try to be as brief as possible. So I 
have been blessed with wonderful mentors. Green for All/Dream 
Corps was one of our first mentors when we launched our company 
through a partnership with then Accenture. It now became our 
corporate mentor, and we are doing work across the country with 
Accenture.
    Exelon/Pepco is a mentor company. You would think that, you 
know, the electric utility and a solar company would be 
aligned, but we share the same goals as far as making sure our 
community is moving forward and people have jobs.
    As far as what are some of the things that this bill and 
this body can do to support small businesses, I think it is 
providing procurement opportunities, but holding our feet to 
the fire. So if we have procurement opportunities, making sure 
that we are hiring the local community and we are providing 
mentorship opportunities and creating other small businesses 
that come behind us.
    And then, lastly, with returning citizens, that is a huge 
emphasis and something I am working on. I think a big part of 
that is just reach-back support as well. So once--you know, 
really preparing people when they are coming out and returning 
to the society to be successful in jobs, not just to get the 
job but to stay in the job. And so that is definitely something 
that I would hope maybe there would be some consideration to 
include returning citizens as part of this bill.
    Ms. Blunt Rochester. I am going to jump to Ms. Colon--I 
have got to get it right, too.
    Ms. Colon de Mejias. Colon de Mejias.
    Ms. Blunt Rochester. Colon de Mejias.
    Ms. Colon de Mejias. I am going to shorten my name for the 
next hearing.
    [Laughter]
    Ms. Colon de Mejias. My answer is that in order to help 
small businesses and women-owned businesses, OJT funds are 
phenomenally helpful. Training support programs are extremely 
helpful because as a small business one of the biggest 
expenses--and I think--I don't know who said it earlier today--
that, you know one of our biggest issues is filling those 
roles, and then filling them and worrying about someone taking 
those people because they need to fill their roles. That is a 
big problem.
    Ms. Blunt Rochester. Thank you. All right. Ms. Truong?
    Ms. Truong. We talked about earlier about wanting to get 
more women into these industries. Getting my personal journey, 
I talked to women across this country, women who have a lot of 
credentials, and they are so intimidated by the STEM barriers. 
They think they can't talk the science or the math, and they 
can't get into these areas.
    So I think demystifying that, I think if we want to 
increase diversity in small businesses we can require reporting 
of how many of our large utilities and businesses actually 
subcontract or subgrant to small or diverse businesses. We can 
also set targets to improve percentage-wise every year. Can we 
improve 5 percent every year?
    And then, finally, around prison, we can start training 
inside of prisons now. We have a shortage of labor, dire 
problem around the country. We can start training programs 
inside of prison. We can make sure we provide wrap-around 
services to employers to encourage them to hire people coming 
out of prison, to stop the gap between the hiring processes and 
then provide wrap-around services so that they stay in the 
jobs.
    Ms. Blunt Rochester. Thank you. I have 5 seconds. I want to 
thank Mr. Simpson so much, especially for talking about the 
workforce investment boards and making sure that we have some 
coordination across.
    And also, Ms. Mehnert, I want to also say hi to Ally, and 
thank you for bringing her.
    Thank you so much. I yield back.
    Mr. Rush. I want to thank the gentlelady. The matter before 
the subcommittee now is the unanimous consent request for the 
submission of articles and items for the record. And those 
items include a letter from the Alliance on Safe Energy, a 
letter from Duke Energy, a letter from the Solar Energy 
Industries Association, a letter from the Texas A&M University 
System, a letter from the Center for Energy Workforce and 
Development, and a letter from the National Urban League, and, 
finally, a letter--an article, rather, from my colleague Mr. 
McKinley, an article entitled ``In Minneapolis, low-income 
neighborhoods see influx of clean energy investment.'' Or it is 
Mr. McEachin, I am sorry. Mr. McEachin is the one who requested 
the unanimous consent decree.
    Hearing no objection----
    Mr. McKinley. We would like to see--we would have preferred 
seeing a few of these in advance to review them. But, yes, of 
course we are going to accept, in cooperation with you on this. 
But we would like to see in the future more--to have a chance 
to review them.
    Mr. Rush. Well, certainly. The chairman will adhere to that 
request. Thank you so very much. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. And we want to make sure that we thank all of the 
witnesses for your participation in today's hearing. You have 
given us some very informative, insightful, and exciting 
testimony, and we certainly want to thank you.
    And I want to remind Members that, pursuant to committee 
rules, they have 10 business days to submit additional 
questions for the record to be answered by the witnesses who 
have appeared before us today. And I ask each witness to 
respond promptly, if there are any such questions that you may 
receive.
    And so, again, thank you, thank you, thank you for your 
participation.
    At this moment, the subcommittee now stands adjourned. 
Thank you so much.
    [Whereupon, at 1:25 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
